<html>
<title> - LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




         LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2004

                               __________

                           Serial No. 108-287

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


         LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE



         LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2004

                               __________

                           Serial No. 108-287

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                ------                                

                    U.S. GOVERNMENT PRINTING OFFICE
20-084                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
MICHAEL C. BURGESS, Texas            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JOHN R. CARTER, Texas                C.A. ``DUTCH'' RUPPERSBERGER, 
MARSHA BLACKBURN, Tennessee              Maryland
PATRICK J. TIBERI, Ohio              ELEANOR HOLMES NORTON, District of 
------ ------                            Columbia
                                     BETTY McCOLLUM, Minnesota

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
              Nicholas Coleman, Professional Staff Member
                           Malia Holst, Clerk
             Michael Yeager, Minority Deputy Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2004................................     1
Statement of:
    Bundy, Sheriff Steve, Rice County, KS, Sheriff's Department; 
      Lonnie Wright, director, Oklahoma Bureau of Narcotics and 
      Dangerous Drugs; Lieutenant George E. Colby, division 
      commander/project director, Allen County Drug Task Force, 
      Allen County, IN, Sheriff's Department; Joseph Heerens, 
      senior vice president, government affairs, Marsh 
      Supermarkets, Inc., on behalf of the Food Marketing 
      Institute; Dr. Linda Suydam, president, Consumer Healthcare 
      Products Association; and Mary Ann Wagner, vice president, 
      Pharmacy Regulatory Affairs, National Association of Chain 
      Drug Stores................................................    65
    Burns, Scott, Deputy Director, State and Local Affairs, 
      Office of National Drug Control Policy; Domingo S. Herraiz, 
      Director, Bureau of Justice Assistance, Office of Justice 
      Programs, U.S. Department of Justice; and Joseph 
      Rannazzisi, Deputy Chief, Office of Enforcement, Drug 
      Enforcement Administration.................................    18
Letters, statements, etc., submitted for the record by:
    Bundy, Sheriff Steve, Rice County, KS, Sheriff's Department, 
      prepared statement of......................................    68
    Burns, Scott, Deputy Director, State and Local Affairs, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................    20
    Colby, Lieutenant George E., division commander/project 
      director, Allen County Drug Task Force, Allen County, IN, 
      Sheriff's Department, prepared statement of................    87
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Heerens, Joseph, senior vice president, government affairs, 
      Marsh Supermarkets, Inc., on behalf of the Food Marketing 
      Institute, prepared statement of...........................   112
    Herraiz, Domingo S., Director, Bureau of Justice Assistance, 
      Office of Justice Programs, U.S. Department of Justice, 
      prepared statement of......................................    29
    Rannazzisi, Joseph, Deputy Chief, Office of Enforcement, Drug 
      Enforcement Administration, prepared statement of..........    44
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Suydam, Dr. Linda, president, Consumer Healthcare Products 
      Association, prepared statement of.........................   118
    Wagner, Mary Ann, vice president, Pharmacy Regulatory 
      Affairs, National Association of Chain Drug Stores, 
      prepared statement of......................................   124
    Wright, Lonnie, director, Oklahoma Bureau of Narcotics and 
      Dangerous Drugs, prepared statement of.....................    79

 
         LAW ENFORCEMENT AND THE FIGHT AGAINST METHAMPHETAMINE

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Mica, Carter, Tiberi, 
Moran, Cummings, Norton, and McCollum.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Nicholas Coleman, professional staff member; Pat 
DeQuattro, congressional fellow; Malia Holst, clerk; Michael 
Yeager, minority deputy chief counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good morning, and thank you all for coming. Today we 
continue our subcommittee's work on the problem of 
methamphetamine trafficking and abuse, a problem that is 
ravaging the entire Nation and putting a severe strain on law 
enforcement agencies, particularly at the State and local 
levels. Many of my colleagues have proposed legislation to help 
beleaguered law enforcement agencies deal with the meth 
trafficking threat. Today we hope to examine some of those 
proposals.
    Meth is one of the most powerful and dangerous drugs 
available, and it is also one of the easiest to make. It can be 
``cooked'' using common household or agricultural chemicals and 
simple cold medicines, following recipes easily available on 
the Internet.
    Meth comes from two major sources of supply. First, most 
meth comes from so-called ``superlabs'' in California and 
northern Mexico. By the end of the 1990's, these superlabs 
produced over 70 percent of the Nation's meth supply. Superlabs 
are operated by large Mexican drug trafficking organizations 
that have used their established distribution and supply 
networks to transport meth throughout the country.
    The second major source of meth comes from small, local 
labs that are generally unaffiliated with major trafficking 
organizations. These labs have proliferated throughout the 
country. The total amount of meth actually supplied by these 
labs is comparatively small; however, the environmental damage 
and health hazard they create makes them a serious problem for 
local communities, particularly the State and local law 
enforcement agencies charged with the duty to uncover and clean 
them up.
    In my home State of Indiana, for example, more than 20 
percent of the labs raided by police were discovered only after 
the labs had exploded and started fires. Children are often 
found at these meth labs and have frequently suffered from 
severe health problems as a result of hazardous chemicals used 
in drug manufacturing. Robberies and violence in local 
communities as drug dealers and other people seeking money, the 
addicts, continue to commit criminal acts in order to obtain 
precursor chemicals and also money to fund their habits. So 
this has been closely related to other crime in the local 
communities, much more so than the superlabs.
    During this Congress, we have held hearings here in 
Washington, but we have also held field hearings across the 
country--in Indiana, Hawaii, the deep south, the northwest--
examining the meth epidemic. Everywhere we go, we hear about 
many of the same issues. In particular, we have heard about the 
high costs and long hours required for law enforcement agencies 
to hunt down, investigate, and clean up dangerous meth lab 
sites, while dealing with the heartbreaking cases of children 
exposed to drugs and chemicals and in need of emergency medical 
care and a safe place to go. Where meth is a problem, this drug 
is probably the single biggest drain on local law enforcement 
resources in the country.
    We will need to take action at every level--Federal, State, 
and local--to respond to this problem. At other hearings we 
have addressed the question of treatment and prevention, and 
Congress will of course need to deal with them. At this 
hearing, however, we intend to focus on the law enforcement 
side, specifically what we in Congress can do to help sheriffs 
and police departments across the Nation deal with meth. The 
whole meth process started in this subcommittee about probably 
close to 6 years ago in California, where we started with the 
superlab problem, and we have increasingly moved to look at the 
local law enforcement problem, which will be a little more the 
focus of this hearing.
    Congressional proposals to assist local law enforcement 
have taken two basic forms: first, regulations designed to 
reduce the supply of precursor chemicals used to make meth; 
and, second, direct financial assistance to State and local 
agencies to support anti-meth enforcement. I will briefly 
discuss each of these concepts.
    First, what is the best way to reduce the supply of meth 
precursor chemicals, such as pseudoephedrine? Presumably, if we 
can substantially reduce the availability of meth components, 
the number of small meth labs will be reduced as well. There 
are several proposals currently on the table intended to do 
just that.
    One idea is to eliminate the Federal ``blister pack'' 
exemption for pseudoephedrine sales. Under current law, 
retailers can sell unlimited quantities of pseudoephedrine, as 
long as it is packaged in ``blister packs.'' Sadly, these 
blister packs have not been much of a hindrance to meth cooks. 
I believe the exemption should be eliminated, and have proposed 
legislation (H.R. 5347) which would do just that.
    A second approach is to put pseudoephedrine and similar 
chemicals on Schedule V of the Controlled Substances Act. This 
would force retailers to sell cold medicines and similar 
products from ``behind the counter,'' and may also force 
consumers to show identification and sign a register when 
purchasing such products. It may also prevent non-pharmacists 
from selling cold medicines. Oklahoma recently enacted this 
approach in the law, and several other States are planning to 
do the same. In this session of Congress, Oklahoma Congressman 
Brad Carson proposed legislation which would do this on a 
nationwide scale.
    Finally, a third approach takes aim at the importation and 
sale of bulk quantities of pseudoephedrine. According to a 
recent report in the Oregonian newspaper, most of the world's 
supply of pseudoephedrine comes from just a few factories in 
Europe, where, by the way, this subcommittee has been both at 
Rotterdam and Antwerp, and pressured aggressively European 
authorities to crack down on the pseudoephedrine shipment, 
which has traditionally been our supply, as well as working 
with the Canadians.
    But much of this has now moved to India and China. It might 
be possible to stop most chemical diversion even before these 
products reach the shores of the United States and the stores 
in the United States if we can put pressures on the trade. 
Import quotas, international cooperation, and regulations of 
the wholesale markets are all possible ways of reducing the 
availability of precursor chemicals to meth traffickers.
    With respect to any new regulation of meth precursors, 
Congress needs to ask several questions. First, how effective 
will the new regulation be at reducing the supply of precursors 
and the number of meth labs? Second, what will be the impact on 
legitimate sellers and consumers of these products? How much 
inconvenience do we want to impose on people who just want to 
buy cold medicines? And, finally, how effective will the 
regulations passed only in one State be if all the other States 
don't follow suit? Do we need a national standard?
    The second set of proposals involves Federal grants and 
other financial assistance to State and local law enforcement 
agencies. Currently, the Federal Government provides 
significant assistance to State and local agencies through 
several grant programs, including the Byrne Grants and the COPS 
``Meth Hot Spots'' grants, administered by the Department of 
Justice, and the High Intensity Drug Trafficking Areas [HIDTA] 
program, administered by the Office of National Drug Control 
Policy [ONDCP].
    State and local law enforcement officials have repeatedly 
told me and my staff that these grants are vital to their drug 
enforcement, and particularly their meth enforcement efforts. 
Several Members of Congress, including Missouri Congressman and 
Majority Whip Roy Blunt and my subcommittee colleague from 
California Doug Ose, have proposed expanding these programs to 
deal with the meth threat. The administration, however, has 
proposed significant cuts in these programs particularly the 
Byrne Grants. Before deciding whether to expand, contract, or 
significantly re-tailor these programs, Congress needs to have 
a better understanding of what they do and how effective they 
are.
    This hearing will address these difficult questions and 
hopefully help lay the groundwork for legislative action in the 
next Congress. Our first panel of witnesses has joined us to 
discuss the Federal Government's response to the meth problem. 
Mr. Scott Burns, Deputy Director of State and Local Affairs at 
the Office of National Drug Control Policy, who has taken a 
lead role in addressing meth issues; Mr. Domingo Herraiz, 
Director of the Bureau of Justice Assistance at the Justice 
Department's Office of Justice Programs, which is responsible 
for administering many of the Federal grant proposals at issue 
today; and Mr. Joseph Rannazzisi, Deputy Chief of the Office of 
Enforcement at the Drug Enforcement Administration, which is 
not only responsible for coordinating the Federal Government's 
meth enforcement efforts, but also for administering the 
Federal Government's meth cleanup assistance program for State 
and local agencies.
    For the record, the subcommittee invited the U.S. Coast 
Guard to testify at this hearing concerning the trafficking of 
Southeast Asian methamphetamine, also called yaba, and the 
movement of precursor chemicals into this country from Asia. 
The Coast Guard declined to testify about their knowledge of 
these issues. The subcommittee will ask the Coast Guard in 
writing about questions regarding Southeast Asian meth and the 
movement of precursor chemicals.
    At a hearing like this, it is vitally important for us to 
hear from the State and local agencies forced to fight on the 
``front lines'' against meth and other illegal drugs. We 
welcome Mr. Lonnie Wright, Director of the Oklahoma Bureau of 
Narcotics and Dangerous Drugs, who will talk to us today about 
his State's new anti-meth law; Sheriff Steve Bundy of the Rice 
County, KS Sheriff's Department; my fellow Hoosier, Lieutenant 
George Colby, Division Commander and Project Director of the 
Allen County Drug Task Force at the Allen County Sheriff's 
Department.
    We also welcome three representatives of manufacturers and 
retailers of pseudoephedrine products, who will help us 
understand the impact that new regulations may have on 
businesses and consumers. We are joined by Mr. Joseph Heerens, 
Senior Vice President for Government Affairs at Marsh 
Supermarkets, on behalf of the Food Marketing Institute; Dr. 
Linda Suydam, President of the Consumer Healthcare Products 
Association; and Ms. Mary Ann Wagner, Vice President for 
Pharmacy Regulatory Affairs at the National Association of 
Chain Drug Stores.
    We thank everyone for taking the time to join us this 
morning, and look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.001
    
    [GRAPHIC] [TIFF OMITTED] T0084.002
    
    [GRAPHIC] [TIFF OMITTED] T0084.003
    
    [GRAPHIC] [TIFF OMITTED] T0084.004
    
    Mr. Souder. Now I will yield to the distinguished ranking 
member, Mr. Elijah Cummings.
    Mr. Cummings. I want to thank you, Mr. Chairman, for 
holding this hearing and for your attention to this important 
issue of methamphetamine abuse in the United States and our 
efforts to fight it.
    Methamphetamine is a dangerous, highly addictive, and 
sometimes deadly illegal drug, the increasing use of which has 
created a serious drug epidemic in our country.
    Once concentrated in the western United States and among 
particular population subgroups, the use of meth has spread 
geographically, has become more broadly population, and appears 
to be increasing among young adults in particular. Significant 
changes in patterns of meth trafficking and production have 
contributed to the epidemic, while increasing the challenge of 
anti-meth law enforcement efforts.
    The adverse impact of the meth problem is not limited to 
the serious negative effects on health and the general well-
being of its users. Because meth use leads to violent and 
erratic behavior, it fuels serious crime problems in areas 
where meth use is prevalent; and meth production can result in 
deadly exposures and substantial environmental damage. For 
these reasons, the spread of meth production and use creates 
severe burdens for the government agencies that must deal with 
the consequences.
    On that note, I want to thank all of our witnesses who, on 
a day-to-day basis, work so hard to address the drug problems 
in this country. As one who has seen the effects of the drug 
epidemic and has seen the people that it has destroyed, the 
neighborhoods and the families, I thank you for what you are 
trying to do. I know it is an awesome task.
    Anti-meth efforts have become an increasing focus for 
Federal, State, and local law enforcement agencies in various 
parts of the country, including through the High Intensity Drug 
Trafficking Areas program and other joint law enforcement task 
forces.
    We will hear today from representatives of the Office of 
National Drug Control Policy, the Drug Enforcement 
Administration, the Office of Justice Programs, and the drug 
law enforcement officials from Indiana, Kansas, and Oklahoma 
about how law enforcement is responding to the trends in meth 
production, trafficking, and use, and to the costly 
consequences of these activities.
    The chairman did mention the fact that we will be hearing 
about the Federal Government's response. One of the things I am 
also interested in hearing is I read about some of the State 
laws that have been put into effect, and I would like to hear 
recommendations as to whether other States should be doing the 
same things, or perhaps whether the Federal Government should 
step up their role in regard to those issues.
    When I read about one of them, I immediately wrote my State 
legislator, my favorite State legislator--you have always got 
to have somebody to carry your water in the State government--
and said, look, you ought to put this into effect; you ought to 
make sure you file this come January, when our legislature 
comes into being. So we want to know that.
    Because meth is frequently manufactured from common, 
readily available products, such as over-the-counter cold and 
cough medicines, it presents unique policy problems. Beginning 
with the Comprehensive Methamphetamine Control Act of 1996, 
Congress has responded with legislation to increase penalties 
for meth-related crimes and tightened controls on retail sales 
of products containing pseudoephedrine and related chemicals. 
Several proposals introduced in the 108th Congress would place 
further restrictions on the sale of over-the-counter products' 
use in meth production, and Mr. Souder has gone over some of 
them.
    Clearly, the meth epidemic presents a difficult set of 
challenges for law enforcement policymakers. I hope today's 
hearing will enhance our understanding of the challenges and 
shed some light on what further action we should take to 
address the problem.
    And I want all of our witnesses to know that this is indeed 
a bipartisan subcommittee, and we share a lot of concerns with 
regard to drugs, and we have worked very hard to make sure the 
government works effectively and efficiently using the 
taxpayers' dollars to address those problems. So we welcome 
you; we thank you.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0084.005

[GRAPHIC] [TIFF OMITTED] T0084.006

[GRAPHIC] [TIFF OMITTED] T0084.007

    Mr. Souder. Mr. Mica, did you have an opening statement?
    Mr. Mica. Well, Mr. Chairman and ranking member, I thank 
you for convening this hearing today on law enforcement's 
efforts and the administration's efforts to fight the scourge 
of meth abuse and misuse of illegal narcotics. Having 
participated on this panel for some time--and I think I just 
heard the chairman recall a hearing that we held in California, 
when we saw the beginning of this problem in our country--I 
think I was never so shocked as some of the testimony we heard. 
I think one was of a mother who put her baby in a microwave 
when she was on meth, and we heard social workers talking about 
dozens of children that had been abandoned because their 
parents or guardian was hooked on meth.
    It made me realize that we had a very insidious problem, 
and also a problem that needed a multifaceted approach, and I 
am pleased the administration has what they call a national 
synthetic drugs action plan. One of the realizations from that 
hearing and from that time was that it is going to take a 
combination of effort. It is not just enforcement, which is 
important; it is not just interdiction of the chemicals, 
because meth can be produced with off-the-shelf ingredients; it 
is going to take education and treatment efforts.
    And I think people really don't realize and, fortunately, 
hearings like this can tell the damage that this is doing. 
Right now we are in the 20,000 range per year of individuals 
who die from drug overdose deaths; 20,000 Americans. It is a 
phenomenal number; it is a silent death. But that is only those 
from drug overdose. You are not talking about the murders, the 
suicides; you are not talking about the human toll, the 
families that are in total chaos and individual lives that are 
destroyed through narcotics. This is indeed our biggest social 
problem, the biggest problem in our society today, is the 
problem of illegal narcotics, now led by the meth epidemic.
    So I think you are holding the hearing today is important, 
and I think that the plan of action that has been proposed is 
important, and I think that we need to provide whatever 
resources are necessary in a concerted effort to deal, again, 
with this whole situation.
    So I thank you and I look forward to working with you, and 
applaud your efforts today in bringing this to the attention of 
the subcommittee and Congress.
    Mr. Souder. Thank you.
    Ms. Norton, do you have any opening comments?
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
this hearing.
    It is not the first hearing we have had on methamphetamine, 
and I think the fact that we have had more than 1 year points 
out the concern of the committee and the Congress about the 
rapid spread of this drug, whose effects are quite pervasive, 
not only on individuals, but on the environment itself, because 
these labs require extensive cleanup after they are brought 
down.
    I recognize that drugs of choice differ based on location 
in the country, and that in big cities you don't hear as much 
about meth. You hear about very dangerous drugs, but not meth. 
And it is interesting, I guess whoever establishes a niche, 
that becomes the drug of that locale.
    But I asked about meth in the Nation's Capital, and, yes, 
to be sure, it is the kind of drug where the existence of labs 
and the like do not lend themselves as readily to bringing it 
in to the middle of a big city, so it is not a major problem 
here yet. I am very concerned that we catch it, because who it 
is a major problem with are teenagers and young adults.
    And we know about the use of young adults and the 
distribution at raves and at nightclubs of meth and meth-type 
drugs. So I am particularly concerned about the age group that 
is involved and that this could sweep everywhere. We already, 
it seems to me, have a major problem with meth, but it would 
appear to me that it has real attraction on a national level.
    There are a number of bills that have been pending for 
sometime in the Congress. The last time we took, I think, 
significant action was in the 106th Congress. I don't believe 
these bills are terribly controversial, and I certainly hope 
some of them will come to the floor.
    For example, a bill that would require that certain of the 
ingredients that can be used to make meth, which are readily 
available in a store or a drug store, be kept behind the 
counter of the pharmacy, so that you would have to make your 
purchase over the counter and show identification and sign a 
log. I think these are the kind of minimal steps that the 
Congress should take. At the same time that we are saying to 
drug enforcement officers around the country why don't you 
clean it up, we need to do all we can, and perhaps much more, 
to help you clean it up.
    Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman. Thank you for having 
this hearing today. It is a real pleasure to have a constituent 
of mine on the panel, and friend, Domingo Herraiz, who has, in 
the past, served Ohio as the man in charge of the Criminal 
Justice Service Office in Ohio. Great reputation; did a great 
job in Ohio. Thank you for your work here in Washington and 
your service to our country.
    I yield back.
    Mr. Souder. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    This is a hearing that I think will help us be more 
effective in working with you and our local law enforcement on 
this very critical issue of methamphetamine. I just had some 
law enforcement in my office on Monday from our Minnesota 
Police and Peace Officers Association, and we have taken some 
of the steps to work toward reducing the number of small labs. 
Prompts come up when Sudafed is purchased and that, but law 
enforcement was sharing with me that the bigger problem--and it 
is in the testimony that is before us today--is really from the 
major labs that are producing methamphetamine in very large 
quantities.
    Law enforcement spoke of three generations of 
methamphetamine abusers in one family, and now arresting the 
grandchildren of meth users. So this is a very serious problem 
which needs to be looked at. The filling up of our prisons in 
Minnesota, as we do make arrests; the lack of any kind of 
treatment that is proven to help people who do want to change 
their life around is very serious.
    But I think the issue that concerned me most was the first 
responders and their concern about their own personal health. 
So I think if this is part of the war on drugs, we need to come 
up with protocols for what type of equipment will be available 
for rural, urban, and suburban first responders; what is the 
protocol when we find children for their health, well-being, 
which affects their ability to be good learners in school; and 
what we are going to do for our first responders for their 
health. We are now starting to see retirements come about as 
people literally have had their lungs destroyed when they have 
encountered labs that they didn't know that they were walking 
into.
    So, Mr. Chair, I appreciate the hearing and I look forward 
to working on this very important issue.
    Mr. Souder. Thank you.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Well, I first encountered speed back in 1981. As a trial 
judge, we dealt with it a lot. I had an experience that I will 
share with you one time. We had a bunch of trustees that were 
moving furniture in the courthouse, and I was just listening to 
their conversation, and I discovered something that was very 
interesting: going to prison is the cost of doing business in 
the drug manufacturing business. If going to prison is not too 
harsh and the profits are great, then the results are that it 
is just the cost of doing business, and 2 or 3 years is not bad 
when you are making a million bucks a year, so you just take 
your time and go back, and you are back in business in 30 days 
and everything is wonderful.
    Now, we weren't dealing with the superlabs that you are 
dealing with today; we were dealing with the mom-and-pop 
operations. But, first off, an information program went out 
through the local papers about the problems with meth and the 
problems with speed, and what happens when kids get on it; and 
then the jury showed up and started issuing punishment, because 
in Texas you get to go to the jury for punishment.
    And people discovered that maximum sentences for those 
people who were manufacturing methamphetamine resulted, at 
least in our county, of no manufacture of methamphetamine. 
Methamphetamine generally, in those days, was manufactured in 
the suburban counties around the urban areas, and we happened 
to qualify as one of those suburban counties around Austin 
being the urban area. They weren't cooking meth in Austin; they 
were cooking meth in Williamson County and Bastrop County and 
Hays County and Bernard County that surrounded Austin. Within 
60 days there wasn't anybody cooking in Williamson County, 
because everybody that got caught was going to prison for 20 
years and up. And ultimately that problem got solved in our 
area, because everybody started looking at what happened.
    So I want to know what we are doing in the way of punishing 
people who are manufacturing this stuff, because I happen to 
believe that if the cost of doing business gets great enough, 
on the mom-and-pop labs, at least, the speed labs go elsewhere. 
And then ultimately we need to know what is being done 
internationally on these people that are cooking out of this 
country, and the harshness that we are dealing with those 
people who are transporting into this country large volumes of 
these drugs, because I think that also has a cost of doing 
business effect on drug traffic.
    I agree with everything that everyone says about the issue 
of treating people, but the bottom line is education. Making 
the business difficult, in my opinion, is the key to cleaning 
up the drug business. So I would like to hear your ideas on 
some of those things, and I thank you very much for being 
willing to come here and share with us.
    Mr. Souder. Thank you.
    We are going to insert into the record this tremendous 
Oregonian newspaper series, ``Unnecessary Epidemic,'' that has 
a very interesting map that shows, as this committee has 
watched it over the years, the track from west to east of the 
meth problem, starting in Hawaii, which is the oldest and 
deepest. We are now in the city of Honolulu. Some apartment 
complexes require cleaning prior to taking occupancy, because 
the leftover meth chemicals from the labs poison the children 
in the next group that comes in. We have seen it in the west 
coast, moving to the midwest. You can tell by the request for 
field hearings to this committee. Right now they are 
outstanding from members, from Kansas, Missouri, Kentucky, 
southern Indiana, Tennessee, and North Carolina.
    And the hearing requests tend to come as it is moving east. 
We get the request from that group of members, and you can see 
the intensity of the problem coming. In the Speaker's drug task 
force, it is the No. 1 subject that comes up. The members from 
North Carolina showed up en masse last time regarding the meth 
problem as it has moved.
    As we have held the field hearings, we have seen the first 
signs of it coming into motels and other things in New Orleans, 
and in the southeast, Detroit, which would be the first hit in 
some of the largest cities, because up until now it tends to 
have been a rural phenomenon and to some degree moving into the 
suburbs.
    If it hits the cities, it could be like a crack epidemic, 
which is why we really need to work at both the rural and the 
urban side, and understand that this is something that is a 
widening threat; and when it hits a district, to the Member of 
Congress in that district, it becomes the No. 1 issue in his 
district, beyond any other narcotics issue.
    With that, we will have a few other things we are going to 
insert, but before proceeding, I want to take care of a couple 
of procedural matters. First, I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record; that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, and that all Members may 
be permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Now, our first panel, Mr. Burns, Mr. Herraiz, and Mr. 
Rannazzisi, if you will stand and raise your right hands, I 
will administer the oath. It is the tradition of this 
committee, as you know, because it is an oversight committee, 
that it is our standard practice to ask all witnesses to 
testify under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Mr. Scott Burns, Deputy Director at ONDCP. And we are also 
going to insert into the record your National Synthetic Drugs 
Action Plan. As we look into the next session, and what we can 
do here in Congress, this will give us a good layout. You have 
done a good job of pulling that together, and we look forward 
to hearing your summary of those remarks and what you have been 
working on in this area; and thank you for your leadership at 
the State and local level.

  STATEMENTS OF SCOTT BURNS, DEPUTY DIRECTOR, STATE AND LOCAL 
  AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY; DOMINGO S. 
  HERRAIZ, DIRECTOR, BUREAU OF JUSTICE ASSISTANCE, OFFICE OF 
   JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE; AND JOSEPH 
     RANNAZZISI, DEPUTY CHIEF, OFFICE OF ENFORCEMENT, DRUG 
                   ENFORCEMENT ADMINISTRATION

    Mr. Burns. Well, thank you, Chairman Souder, Ranking Member 
Cummings, and members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the efforts 
to reduce the problem of methamphetamine in America. I 
appreciate this subcommittee's longstanding support of the 
Office of National Drug Control Policies and our efforts 
against illegal drug use.
    The problem of methamphetamine use, distribution, and 
production, as you know and have discussed, is one with which I 
am also well acquainted. I was a prosecutor in rural Utah for 
some 16 years before being confirmed in my present position. 
Methamphetamine use and labs can take a significant toll on 
communities, but I am pleased to report that there is good news 
on the horizon. As discussed in the administration's newly 
released National Synthetic Drugs Action Plan, there are things 
we can do that we know will make the methamphetamine problem 
smaller and that we intend to pursue over the next 4 years.
    My written testimony discusses this in greater detail, and 
I request it be made part of the record.
    Our approach to methamphetamine must be market-based, 
focusing both on the supply and demand of the drug. Reducing 
the supply of methamphetamine is best accomplished by 
destroying the ability of methamphetamine cooks, both large and 
small, to make the final product; and this means making the 
acquisition of chemicals used to cook methamphetamine even 
harder than it is now.
    One of our successes in this area is Operation Northern 
Star, which is a DEA-led initiative to cutoff the supply to 
superlabs of pseudoephedrine, the key ingredient, again, as you 
know, used to make meth. By focusing on the diversion of these 
chemicals from Canada to domestic superlabs, we have now seen a 
shrinking in the number of superlabs within the United States, 
and that is good news. However, we believe that some of these 
superlabs are being pushed south of our borders to Mexico; and 
for this reason we will continue to work with our international 
partners, such as the Fox administration, to stop the flow of 
these chemicals into Mexico, and we fully support the efforts 
of the Fox administration to become more effective in 
controlling the methamphetamine threat in Mexico.
    In addition to the efforts of Federal law enforcement, we 
continue to be focused on disrupting the domestic market for 
methamphetamine. For example, the percentage of Organized Crime 
Drug Enforcement Task Force, or OCDETF, investigations in which 
at least one of the drugs involved included methamphetamine has 
steadily increased, from 19.2 percent in fiscal year 2001 to 
26.7 percent in fiscal year 2004.
    Additionally, among the High Intensity Drug Trafficking 
Area, or HIDTA, initiatives that focus predominantly on a 
single drug, more have focused on methamphetamine than any 
other drug. Most of the remaining initiatives which were poly 
drug in nature included a methamphetamine focus.
    Among the many recommendations of the administration's 
Synthetic Drug Action Plan are those designed to cutoff access 
by methamphetamine producers to precursors such as 
pseudoephedrine. These including a lowering of the Federal 
limit on single sales of pseudoephedrine products and removing 
the so-called blister pack exemption that currently exists in 
Federal law.
    Federal legislation will be necessary to implement some of 
the recommendations set forth in the Action Plan, and we look 
forward to working with you to identify the right solutions. 
Additionally, some States have focused on limiting not only the 
amount of pseudoephedrine products that may be purchased, but 
also the location and manner in which the product may be 
purchased, and have imposed additional requirements for the 
process of the purchase itself.
    Over the next several months we will be closely analyzing 
the data and results in States where these innovative measures 
have been implemented. Many of these State actions were taken 
in the recent past, so over the next several months we will 
seek the best data and information possible to highlight which 
of those approaches are the most effective in reducing 
methamphetamine availability and lab numbers.
    In conclusion, as with the drug issue as a whole, it is 
important to remember that drug trafficking and production 
respond to effective supply and demand reduction measures, and 
the administration looks forward to working with Congress to 
effectuate a lasting reduction of the methamphetamine problem 
in America.
    I look forward to your questions and, again, thank you for 
holding this hearing.
    [The prepared statement of Mr. Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.008
    
    [GRAPHIC] [TIFF OMITTED] T0084.009
    
    [GRAPHIC] [TIFF OMITTED] T0084.010
    
    [GRAPHIC] [TIFF OMITTED] T0084.011
    
    [GRAPHIC] [TIFF OMITTED] T0084.012
    
    Mr. Souder. Thank you very much.
    Mr. Domingo Herraiz, who is the Director of the Bureau of 
Justice Assistance, Office of Justice Programs of the U.S. 
Department of Justice, arguably the most important agency to a 
lot of our local State and police agencies. We appreciate your 
coming today and look forward to your testimony.
    Mr. Herraiz. Chairman Souder and members of the 
subcommittee, I am pleased to be here this morning before the 
subcommittee to discuss how the Office of Justice Programs 
provides support in addressing the problems of methamphetamine 
abuse, manufacturing, and tracking in the United States.
    As requested by the committee, I will also discuss the 
Office of Community Oriented Policing Services, the COPS 
office, and their meth programs.
    As we continue to combat the deadly scourge of 
methamphetamine, I want to point out that our overall effort in 
fighting crime is succeeding. I am pleased to report to you 
that the violent crime rate is the lowest in 30 years. For the 
first time in a decade we have seen teenage drug use fall 
across all boards, with the 8th, 10th, and 12th grade. Although 
we are encouraged by this data, if we want to continue the 
decline in crime, we realize we must remain committed to 
preventing crime and holding accountable those who violate our 
laws.
    As BJA director, I now focus on the problems associated 
with meth from a national perspective. However, in my previous 
position as Director of the Ohio Office of Criminal Justice 
Services I saw firsthand the toll that meth has had on Ohio 
families and children, as well as the Ohio criminal justice 
system.
    Mr. Chairman, as we both know coming from heartland States, 
the problems associated with meth production, distribution and 
abuse is of grave concern to rural areas.
    Through various BJA funding sources, law enforcement 
agencies across the country are addressing the prevention and 
treatment of meth abuse, as well as the production, 
distribution, and exposure risks to officers and citizens. Meth 
task forces and other anti-drug efforts investigate and 
prosecute drug crimes, as well as work diligently to ensure law 
enforcement officers' safety while encountering meth labs. BJA 
also provides valuable training and technical assistance to law 
enforcement on task force management and investigation.
    One of our primary funding sources for supporting efforts 
to fight meth abuse is the Edward Byrne Memorial State and 
Local Law Enforcement Assistance Program, which is a 
partnership among Federal, State, and local governments to 
create safer communities. Through Byrne, BJA awards grants to 
States for use by the States and units of local government to 
improve the functioning of the criminal justice system.
    In fiscal year 2003 alone, at least eight States and 
partnering local communities made use of $2.76 million in Byrne 
Program funds for anti-meth efforts. For example, in Tennessee, 
Byrne funds were used to support both meth investigation and 
trafficking efforts, as well as prevention efforts. In Oregon, 
Byrne funds were used to support two different regional drug 
task forces for meth lab seizures, as well as the destruction 
of street-level distribution. A Methamphetamine Response Team 
was funded in Kentucky and Kansas used Byrne funds to support 
the development of intensive supervision and treatment 
alternatives to meth abusers and offenders.
    The Bureau of Justice Assistance, the Drug Enforcement 
Administration, and the Office for Community Oriented Policing 
Services prepared a program-level environmental assessment 
governing meth lab operations. Officers face unknown exposure, 
as you have already mentioned, when responding to homes, hotel 
rooms, vehicles, and other places where meth is being produced 
or consumed.
    In addition, when the immediate exposure risks are 
mitigated, the problem isn't gone. Officers and departments 
must then decide what to do with the vehicle, the home, the 
hotel room that would normally soon be returned to its owners 
or occupants or used by other consumers, even though 
contamination may still be at unacceptable levels. Our 
assessment describes the adverse environmental, health, and 
safety impacts likely to be encountered by law enforcement 
agencies as they implement specific actions under their meth 
lab operations.
    Another BJA source of support for these efforts to combat 
meth abuse is the Local Law Enforcement Block Grant Program, 
which provides funds to units of local government to underwrite 
projects that reduce crime and improve public safety. The LLEBG 
Program, as it is referenced, allows funds to be used for 
various types of meth responses, including establishing multi-
jurisdictional task forces, paying for law enforcement 
overtime, and acquiring specialized equipment. The funds can 
also be used to cover or defray costs of insurance for 
hazardous assignments, as may be required with this issue.
    In fiscal year 2004, LLEBG funds supported 12 projects in 
nine States, including Kentucky, Oregon, Texas, and Washington. 
For example, Richmond, Kentucky funded equipment purchases for 
a meth lab trailer that is used to process meth labs 
encountered within the county. Marion County, Oregon funded 
``NO METH: Not in My Neighborhood'' program, and Washington 
County, also in Oregon, launched an Anti-Methamphetamine 
Education Campaign. Corpus Christi, Texas purchased meth 
response protective gear for its officers. Thurston County, 
Washington provided overtime for its officers to support anti-
methamphetamine efforts within the county.
    The administration has proposed replacing the Byrne and 
LLEBG Grant Programs with the new, more flexible Byrne Justice 
Assistance Grant Program in 2005. As you can see by these 
various funds, both the Law Enforcement Block Grant and the 
Byrne Program could be utilized for prevention, education, 
enforcement, and prosecution efforts.
    The Drug Court Discretionary Grant Program is another BJA-
administered program which is a valuable resource for 
communities experiencing methamphetamine problems. Drug courts 
can assist those who abuse meth and other drugs by providing 
treatment, drug testing, sanctions, and transitional services 
to offenders.
    In addition to BJA's grant programs, I am placing an 
emphasis on providing training and technical assistance with 
regard to the complexities of the meth production and abuse. 
Just this past October, BJA, along with the Office of National 
Drug Control Policy and the Alliance for Model State Drug Laws, 
a BJA grantee, sponsored a National Methamphetamine Legislative 
and Policy Conference. The summit produced concrete strategies 
and raised awareness regarding additional work we need to do to 
comprehensively attack methamphetamine throughout the Nation.
    Through the Center for Task Force Training, BJA provides 
training to law enforcement on basic investigation techniques 
and basic drug task force management issues such as personnel 
selection, handling confidential informants, and raid planning. 
After hearing from law enforcement about their need for 
additional training, we have more than tripled our number of 
methamphetamine training courses offered nationwide, for a 
total of up to 12 courses. These courses are offered at the 
State level, for the State themselves, to then bring in local 
law enforcement to provide them the opportunity to be trained. 
Most recently, we have scheduled a course, actually in 
Virginia, as the first pilot of this project.
    Other components of the Office of Justice Program are also 
addressing meth use and serving its victims. For example, the 
National Institute of Justice is working on a comprehensive 
review of methamphetamine-related research that will identify 
lessons learned about enforcement and treatment, as well as 
research gaps that need to be addressed.
    The Office for Victims of Crime has a bulletin available 
called ``Children at Clandestine Methamphetamine Labs: Helping 
Meth's Youngest Victims.'' It explains that the best way to 
help these children is through coordinated multi-disciplinary 
efforts such as medical and mental health treatment services, 
child protective services, law enforcement, prosecution, and 
public safety officials.
    As the subcommittee is aware, the Office of Community 
Oriented Policing Services [COPS], operates the COPS 
Methamphetamine Program. The program is intended to support 
State and local clandestine lab cleanup efforts. In 2005, the 
administration requests $20 million for that purpose.
    Available on the COPS Web site is a problem-solving guide 
on clandestine drug labs and an evaluation of the COPS Meth 
Program. The guide is intended to help law enforcement develop 
proactive, prevention strategies and to improve the overall 
response to these incidents. The evaluation assesses the 
effectiveness of the community policing strategies employed by 
the various jurisdictions funded by the COPS Office under the 
Methamphetamine Program in fiscal year 1998. The evaluation 
report indicates successes among those agencies employing 
coordinated, proactive intervention tactics, including targeted 
enforcement strategies coupled with police and community 
awareness training regarding the production and distribution of 
the drug.
    Even though these collective efforts from OJP and COPS are 
helping address the Nation's meth problem, we recognize we need 
to work harder with all of our State and local partners to 
ensure that resources are used effectively and efficiently. 
Through our conferences, we have learned from the field that 
they would be better served by having a centralized resource, a 
portal, if you will, for information on meth abuse and 
strategies, including law enforcement and prosecution 
strategies, environmental briefs, research summaries, and 
funding information, and BJA is creating it.
    We appreciate the interest that you and your colleagues 
have shown in this critical drug abuse issue. I welcome the 
opportunity to answer your questions as it relates to the 
Office of Justice Programs. I would request that any questions 
related to the COPS Program be submitted to the COPS office in 
writing. Thank you.
    [The prepared statement of Mr. Herraiz follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.013
    
    [GRAPHIC] [TIFF OMITTED] T0084.014
    
    [GRAPHIC] [TIFF OMITTED] T0084.015
    
    [GRAPHIC] [TIFF OMITTED] T0084.016
    
    [GRAPHIC] [TIFF OMITTED] T0084.017
    
    [GRAPHIC] [TIFF OMITTED] T0084.018
    
    [GRAPHIC] [TIFF OMITTED] T0084.019
    
    [GRAPHIC] [TIFF OMITTED] T0084.020
    
    [GRAPHIC] [TIFF OMITTED] T0084.021
    
    [GRAPHIC] [TIFF OMITTED] T0084.022
    
    [GRAPHIC] [TIFF OMITTED] T0084.023
    
    [GRAPHIC] [TIFF OMITTED] T0084.024
    
    [GRAPHIC] [TIFF OMITTED] T0084.025
    
    Mr. Souder. Thank you.
    Our next witness is Mr. Joseph Rannazzisi. I appreciate 
your work as the Deputy Chief of the Office of Enforcement of 
DEA. DEA increasingly plays not only an internationally 
important role, but in the United States working with our local 
drug task forces. So I am glad you came to testify today and 
look forward to your testimony.
    Mr. Rannazzisi. Thank you very much, sir. Chairman Souder, 
Ranking Member Cummings, distinguished members of the 
subcommittee, and fellow panel members, on behalf of 
Administrator Karen Tandy, I appreciate your invitation to 
testify today on the importance of law enforcement's fight 
against methamphetamine.
    Until the late 1980's, methamphetamine's popularity was 
primarily confined to the west coast and southwest. By the 
early 1990's, methamphetamine was gaining in popularity, 
spreading west to east across the country, and hitting rural 
areas particularly hard. No community is immune.
    There are three distinct components to combating the 
overall methamphetamine problem: first, enforcement; second, a 
comprehensive domestic and international precursor control 
program; and, third, the identification and cleanup of the 
growing number of small toxic labs, which we call STLs.
    As a result of our efforts and those of our law enforcement 
partners across the country and in Canada, since 2001, the 
United States has seen a 79 percent decrease in the seizure of 
superlabs. Enforcement efforts have also led to an 85 percent 
reduction in the amount of pseudoephedrine, ephedrine, and 
other methamphetamine precursors seized at the Canadian border, 
and the price of black market pseudoephedrine in California has 
doubled.
    Internationally, the DEA is working with our foreign 
counterparts to prevent the diversion of pseudoephedrine from 
Europe, China, and India to methamphetamine producing 
countries.
    Specialized training is required to safely and effectively 
conduct these investigations, and our Office of Training has 
developed a program for our agents, State and local officers, 
and our foreign counterparts. Since fiscal year 2000, we have 
provided basic clandestine laboratory training certification to 
over 6100 State and local law enforcement officers. 
Additionally, we are providing clandestine lab awareness 
training to approximately 17,000 students per year.
    Heightened enforcement efforts have resulted in a dramatic 
increase throughout the country. To properly dispose of 
resulting waste, the DEA has enlisted the services of the 
private sector to help clean up these lab sites. The DEA's 
Hazardous Waste Program, with the assistance of the COPS 
Program, supports and funds the cleanup of the majority of the 
laboratories seized in the United States. Though the number of 
cleanups has increased more than 4,000 percent, the average 
cost per cleanup has continued to decrease.
    In addition to the drain on law enforcement resources, the 
demands on medical, social, environmental, and public health 
and safety services continue to grow. STLs account for the vast 
majority of clandestine labs and are often discovered in areas 
where children live and play. These STLs also generate toxic 
waste, which is frequently discharged on the ground, into the 
waterways, or down the drain. Clearly, given the problem of 
this magnitude, there is a need for new approaches and strong 
regulatory controls on precursor chemicals used to manufacture 
methamphetamine.
    The regulation of ephedrine and pseudoephedrine is a vital 
overall strategy to combat methamphetamine abuse. State 
legislative measures have focused on limiting the amount of 
pseudoephedrine products that may be purchased, the location 
and manner in which the product may be purchased, the 
requirements for the process and purchase itself. Because State 
action regulating methamphetamine precursors is a recent 
development, the administration will wait for better data and 
information to emerge before commenting on the effectiveness 
and impact of any particular action in reducing methamphetamine 
availability or methamphetamine laboratory numbers and how they 
relate to Federal policy.
    The administration recently released the National Synthetic 
Drug Action Plan. In doing so, the Department of Justice, 
ONDCP, and DEA proclaimed the seriousness of the challenges 
posed by methamphetamine, along with other synthetic drugs and 
diverted pharmaceuticals, as well as our resolve to confront 
these challenges. The Action Plan outlines specific steps the 
Federal Government will take to accelerate our national efforts 
against these harmful substances.
    The DEA is energetically combating our national 
methamphetamine epidemic on several fronts: we are engaged in 
aggressive enforcement, comprehensive domestic and 
international precursor chemical control, the identification of 
cleanup of the growing number of STLs, and providing 
clandestine laboratory training to our law enforcement 
partners, as well as our foreign counterparts. In addition to 
our efforts in these areas, we also believe that stricter 
regulatory controls of precursor chemicals is one of the most 
effective tools available to assist in the fight against 
illicit methamphetamine production.
    Thank you for your recognition of this important issue and 
the opportunity to testify here today. I look forward to 
answering any questions you may have. Thank you.
    [The prepared statement of Mr. Rannazzisi follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.026
    
    [GRAPHIC] [TIFF OMITTED] T0084.027
    
    [GRAPHIC] [TIFF OMITTED] T0084.028
    
    [GRAPHIC] [TIFF OMITTED] T0084.029
    
    [GRAPHIC] [TIFF OMITTED] T0084.030
    
    [GRAPHIC] [TIFF OMITTED] T0084.031
    
    [GRAPHIC] [TIFF OMITTED] T0084.032
    
    Mr. Souder. Thank you.
    I want the record to show, too, that what our committee is 
finding is that the national EPIC number of 17,000 is 
tremendously understated. In northeast Indiana alone, in 
talking with our sheriffs, the number in my district exceeds 
the number for the State; and in Northwest Arkansas, they had 
more than was reported for their entire State; and in meetings 
that we had with Congressman Alexander in Alexandria and 
Monroe, Louisiana, with about 30 to 50 sheriffs and 
prosecutors, they just dwarfed the numbers that are reported.
    It doesn't appear that any one State is off; it is a 
process. But I think that explains some of the political 
pressure that we are hearing, because somehow our numbers 
aren't matching in the reporting, and I think it is just a lot 
of them are very small local police that are so overwhelmed.
    In my district we can't build enough jails to put the meth 
addicts in. Every single county outside of Allen County, where 
Fort Wayne is, has the majority of their jail spots filled 
right now with meth addicts. And the second they let them out, 
they are right back in it. They are the most immune group to 
treatment that we have faced in any of our drug questions right 
now, and it is partly why we are feeling this political 
pressure.
    But first I wanted to ask Mr. Burns and Mr. Rannazzisi, on 
the small meth labs, what is the main source of precursor 
supply? Do you feel they are buying it from pharmacies or 
stealing it? Do they get the anhydrous ammonia and other 
solvents by buying them or stealing them?
    Mr. Rannazzisi. Let us talk about the anhydrous ammonia 
first. Extremely dangerous chemical used in farming. A 
necessary tool for farmers. Basically, they are stealing it. 
They are walking in, looking at nurse tanks that are on 
farmland, waiting late at night, walking onto the farmland, 
tapping into the nurse tank, an extremely dangerous situation. 
Anhydrous ammonia is a terrible, terrible chemical as far as 
inhalation; severe medical damage to the lungs. There have been 
countless reports of police officers and people being injured 
or killed, citizens being killed because of anhydrous.
    If you remember correctly, I believe it was last year there 
was a meth lab operator who tapped into a high-pressure 
anhydrous line in Florida. It was a pipeline. It scorched 500 
acres of land. I believe two residential developments were 
evacuated and a school. Obviously, they need the chemicals, and 
they go after the chemical that way.
    Mr. Souder. What about the pseudoephedrine?
    Mr. Rannazzisi. Pseudoephedrine is available in all 
different markets. I believe we have done a very good job in 
stopping the bulk flow across the Canadian border. We do know 
that pseudoephedrine is still sent out from, as you said, the 
European countries and China and India. There is that sector of 
bulk pseudoephedrine; there is also the retail sector. 
Obviously, you could walk into pharmacies and buy 
pseudoephedrine.
    Mr. Souder. There is no reason to steal it if you can buy 
it over the counter.
    Mr. Rannazzisi. Right. There are reports where people have 
done sweeps where they have actually walked into pharmacies 
with shopping bags and just swept the whole shelf, put them in 
the bag and ran out of the store. There are serious concerns 
about stealing as well. The profit margin is so high, though, 
if you think about it, why would you want to steal it and get 
caught, when you could purchase it. You could smurf it, go to 
five, six, seven pharmacies or other areas, purchase it, and 
make your methamphetamine.
    Mr. Souder. Because a lot of the mom-and-pop people are 
cooking for themselves, or maybe two people, and they can buy 
it. It is only if they maybe start to get a circle of 10 to 15 
would you start to see----
    Mr. Rannazzisi. I believe that is accurate. Well, I don't 
like to call them mom-and-pop labs; we call them STLs. As a 
gentleman in Kentucky told me, I've known my mom and pop for 43 
years, and I have never gone home and watched them cook meth. 
And I really believe that is accurate. We call them STLs 
because that is what they are, they are very toxic labs.
    Mr. Souder. But there is a difference between those who are 
predominantly cooking for themselves and the immediate 
household, and those who are actually dealers as well.
    Mr. Rannazzisi. That is right. If you look at the people 
who are cooking in their houses, you are looking at small labs, 
probably no more than an ounce. Then you have the people who 
are cooking to support their habit and also to make money. They 
are going to be the multi-ounce purchasers. They are the guys 
who are going to be going out and smurfing large quantities of 
retail sales pseudo, and they are going to be going to 5, 6, 7, 
10 retail distributors purchasing their packs, bringing it home 
and starting the process.
    Mr. Souder. Oklahoma has probably the toughest law at this 
point, and they seem to be making some progress. Do you believe 
that is because of the law?
    Mr. Rannazzisi. I am very cautious to discuss the Oklahoma 
law, and the reason is because, as you said, the statistics 
that are coming out now--let us talk about the CLSS first of 
all. I think you mentioned that the CLSS statistics are kind of 
off; and the reason is that there is always a time lag between 
when the lab is seized and when the paperwork is submitted.
    Now, on the CLSS, paperwork is submitted from all different 
areas. On the west coast it is submitted through WISEN, which 
is a collaborative intelligence center; there could be a 2 to 
3-month lag time. But in these smaller departments, they have 
so much to do, they might not submit their paperwork for 3, 4, 
or 5 months. They are getting it in, they just are not getting 
it in on a timely basis.
    And I understand, I was a lab agent for many years; I still 
am a lab agent. I don't feel that blame should be put on those 
officers; they are doing their best. But that is why we don't 
look at those statistics. We don't look at the November 
statistics and say, look at this, this is where we are. We 
usually wait about 4 to 6 months from the month we are looking 
at to make a determination that is a good number.
    So what I would like to do, and I think what the 
administration and the Department wants to do, is sit back and 
wait about a year. Look at the statistics after a year to make 
a determination how much impact that Oklahoma legislation had. 
I think that is the prudent thing to do.
    Mr. Souder. Did you see the Oregonian, which has a 
cumulative chart that combines DEA data and a Rand Study that 
shows when we regulated ephedrine, the purity of meth dropped 
dramatically over a period of a number of years? Then as they 
figured out they could use pseudoephedrine, it went back up 
again. And when we started to put more regulations on 
pseudoephedrine, it dropped again. That is a long-term chart 
that shows some correlation to the regulation that uses some 
DEA data. Are you familiar with that chart?
    Mr. Rannazzisi. I have read that article numerous times and 
I am familiar with that. I am interested to see where the 
purity data came from. I am not familiar with the sources that 
they got that data from. Obviously, whenever we have a major 
enforcement push, an operation that cuts the flow of precursor 
chemicals, there is going to be less of a market, less 
methamphetamine on the market. If there is less methamphetamine 
on the market, the dealers that have the methamphetamine are 
going to cut their product to service more people, so you are 
going to see a period of decrease. That is an absolute.
    Mr. Souder. I would appreciate it if you could, since the 
footnote source is DEA and a Rand Study, get back to us with 
particulars. Because if that study is incorrect--I know the 
difficulty of determining purity, too. A chart makes it look 
very scientific, but that is actually good news, if we show 
that when we combine intercept internationally and control at 
the local pharmacy level, that we have a reduction in purity. 
But I would like to make sure that chart is accurate.
    Mr. Rannazzisi. Thank you, sir. I will take care of that.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. You don't believe that the numbers are 
accurate when it comes to people involved in using 
methamphetamine? It sounds like you and the chairman were in 
some agreement on that. In other words, the number of people, 
whether the stats that we get--he just talked about Indiana, 
and then you seem like you kind of verified it, that you don't 
believe that the stats. He said the jails are filled with 
methamphetamine addicts, and I thought you kind of verified it, 
but tell me.
    I guess what I am trying to get to is, first of all, we 
have to understand what our problem is and the extent of it, 
before we can deal with it; and if we are not getting numbers 
that are accurate--and you gave some reasons why they might not 
be accurate, but, first of all, I want to know you obviously 
believe that the problem is worse than what it appears to be, 
or what the information is being put out to be.
    Mr. Rannazzisi. Oh, absolutely. I believe there is a 
terrible problem with methamphetamine abuse, and I believe 
there is a very large population of abusers out there. I 
believe there is a large population of abusers that haven't 
been identified. That is absolutely correct.
    Mr. Cummings. I listened to you talk about things that the 
DEA was doing--and, gentlemen, you might want to chime in 
whenever you get ready to--and we are talking about training?
    Mr. Rannazzisi. Yes, sir.
    Mr. Cummings. Tell me just generally about the training. 
What does the training entail that is different than, say, 
dealing with other drugs?
    Mr. Rannazzisi. Well, there are several different training 
courses, but let us take you through what an agent goes through 
for training. You start with your clandestine lab investigation 
and safety course. That is about 2 weeks long. Once you get 
that course under your belt and you go out, learn a little bit 
about labs, then they send you back for safety officer school, 
which I believe is another 3 to 5 days. That is advanced 
training. You get to learn about the equipment and how to take 
it apart, how to check it, make sure it functions properly; how 
to set up a site safety; how to make sure that all the toxic 
substances are identified and removed. Then you go into your 
instructor class.
    That is basically the progression. It is quite a bit of 
training, and there is also a lot of on-the-job training. When 
we take our new lab agents into the labs, it is on-the-job 
training; we are teaching them what to do and what not to do.
    The problem with labs, unlike other law enforcement, is 
until you have done it, until you have seen a process go bad, 
you really just don't know. And you are working in very 
restrictive suits. You do an entry where a lot of times your 
vision is restricted because you are wearing respiratory gear. 
You have to operate in these big bulky suits; you have to be 
very careful. There is always an inhalation problem, where you 
could inhale toxic substances. It is just a different type of 
law enforcement. It is a very different type of law 
enforcement.
    Mr. Cummings. Let me ask you this. If you were up here and 
you got people in your district that are suffering tremendously 
with regard to meth addiction, and you see the labs all over 
the place, what would you do? I mean, in other words, is there 
something that we can do that we are not doing? Because that is 
the bottom line. Is there something that we as Members of 
Congress can do? We obviously have bad numbers, and the problem 
is worse than what we think it is.
    Clearly, this drug is destroying a whole lot of people. I 
am always amazed when I go into these various counties outside 
of urban areas and find out how many people are involved in 
drugs. And they serve their time, maybe they get caught; they 
can't get jobs, they can't support their families, and then 
they are back in jail again. Communities destroyed; families 
paying out money,; good, hard-working people trying to keep 
their kids going, trying to stop them from committing crimes, 
so they are coming out of their pocket with money that they 
could be paying their mortgages and buying food with and 
medicine or whatever. So it is a tremendous drain on our 
society.
    I am just trying to figure out what can we do to try to 
address this problem that is just really going out of whack? 
What would you do, more than what we are doing?
    And then just one tag-on question on that one. You were 
talking about the Federal Government should wait and see how 
these State laws work out, and I think that is not an 
unreasonable proposition. The problem is that there are too 
many people suffering in the meantime.
    And I am just wondering how long is long enough to wait? I 
am assuming we are going to get some people come up here saying 
how great their State law is working, and I am just guessing 
they may say the Federal Government ought to be doing this and 
helping out and maybe making this across-the-board so that you 
can help us in our communities. And since you won't be coming 
back up, I just want to get you to answer that.
    Mr. Rannazzisi. Well, personally, I believe that looking at 
the data for about a year, if we could look at a year's worth 
of data, I think that will give the statistics enough time to 
stabilize and we could make a good determination of what impact 
it is having on the community. Obviously, if the lab seizures 
significantly decrease within a year, then we should look at 
that legislation strongly.
    But what we do also see is peaks and valleys, and it might 
not stabilize down; there might be another source of that 
pseudoephedrine coming in somewhere. That is why we always like 
to wait to make a determination, to make an informed 
determination. For me to come back here and tell you I believe 
that this is the way to go, I think it wouldn't be prudent for 
me to say, at this point in time, this is it, this is what we 
need. Is it promising? Absolutely it is promising.
    But I don't think I could sit here today and tell you that, 
at this point in time, with what I have, the statistical data I 
have, that is necessarily the answer. It is a very promising 
piece of legislation. I know the legislation you are talking 
about. But at this point in time I don't think we have enough 
data to make that determination.
    Mr. Cummings. To the first part of the question, what would 
you do? Is there something that we can do more than what we are 
already doing?
    Mr. Rannazzisi. Well, obviously, there is an awareness 
issue, getting the retailers to understand that this is 
extremely dangerous; allowing people to walk into a store and 
buy 10, 15 packs of blister-exempt products. Obviously, if you 
are buying 10 to 15 packs of blister packs, I just can't 
imagine you have that bad of a cold; I think that you are doing 
something else with the drug. And if retailers would understand 
that, they would limit.
    About 3 years ago, when I was a section chief in the 
Dangerous Drugs and Chemicals Section, I sent two of my guys 
into a local place. I said, here is $500, see how much 
pseudoephedrine you can buy; and they basically came back with 
a bag full of pseudoephedrine. They paid $350 for it and no one 
looked at them, no one said boo.
    So I think the one component is the retailers have to be 
our partners. The retailers are going to have to stop allowing 
people to walk in and purchase quantities, large quantities. I 
think that is part of the issue.
    Mr. Cummings. I just wanted to leave you with this. I never 
thought I would go all the way back to when I was 16 with 
regard to this issue, but when I was 16 years old, I worked in 
a drug store, and I remember I didn't even understand 
Robitussin, but I remember people used to come in and buy 
Robitussin, I mean, like seven and eight bottles of it. Now, I 
knew people had colds and everything, but I thought that was a 
bit much. But I didn't know. Come to find out they were buying 
Robitussin to get high. And when I figured it out, I mentioned 
it to the fellow, who now is deceased, who owned the drug 
store, and he was saying you have to understand, I have to make 
a profit.
    I would hope that we would be able to get the kind of 
cooperation from the drug stores and whatever, but I am not 
sure that is enough. And I guess that is the frustrating part 
of all of this, as I listened to all of you, and perhaps the 
witnesses that will come later will help us, but I can't 
believe that we have to sit and wait while all this destruction 
is taking place. Maybe I am just too impatient, but we have one 
life to live; this is it.
    Mr. Rannazzisi. And I understand your frustration, sir. I 
have been working lab cases as a diversion investigator and 
agent since 1986, and I have watched the progression of this 
problem. I have seen them go from phenyl to propenol and 
phenylacetic acid to ephedrine to pseudoephedrine, and all the 
weird combinations in between. It is a very frustrating 
process, and no one is more frustrated than me, because I have 
to go out into the communities and talk to the local officers 
and hear their problems. And they are problems, they are 
serious problems, because they care about the people they 
protect and serve. At this juncture, though, we have to look at 
all different types of legislation; we have to see what is 
going to be the most effective thing before we can sit here and 
make a determination.
    Mr. Cummings. Do you think the Office of Drug Control 
Policy, for example, is doing enough in regard to prevention? I 
mean, when you hear the stories like Mr. Mica talked about, the 
baby being put in the microwave, we have heard all kinds of 
stories. If some people could just see films of things that 
people do on meth, I just wonder whether it would make them 
think twice before they even got involved in it.
    Thank you, Mr. Chairman.
    Mr. Souder. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I would like to kind of talk a little bit about the 
training. And I want to say that the Department has worked very 
hard to expand the training opportunities, but there are still 
barriers to many law enforcement receiving the training. Do you 
have or can you make available to the committee how many--I 
will use my State for an example--how many sheriff's offices 
through the counties, how many municipalities have taken 
advantage of the training, the followup training that is 
involved in it?
    Because what we are seeing is people are going out and 
getting trained on it, but there are so many other demands, 
State cuts occurring in law enforcement and other things, that 
we don't have maybe as many people taking advantage of the 
training as we realize, just as Congressman Cummings was 
talking about really knowing the numbers of people who are 
incarcerated, as the sheriff pointed out; how many children are 
being impacted in social services and everything like that. We 
need to get a handle on this for the numbers, and I don't know 
if you have data available, if you could get it to the 
committee.
    Mr. Herraiz. Mr. Chairman and Congresswoman McCollum, we 
certainly would be happy at the Department to get you that 
information. I would like to followup, though, as to the 
training aspect and share with you just a better snapshot of 
what is actually happening.
    It is imperative, as I mentioned in my testimony about the 
rural jurisdictions. Too many times sheriffs' deputies will be 
going into a scene that they are going there for something 
else, and they have no idea that they are going to encounter a 
meth lab. It could be a protective service order or something 
that they are going to serve, and they do. And if they have 
been improperly trained, we have already put their life at 
risk.
    So what is important for us to look at is to get to 
Congressman Cummings' issue as far as what is it that we could 
do differently while you, in the meantime, continue to look at 
the legislative remedies. I think it is important for us to 
expand our training efforts.
    I mentioned to you, again in the testimony, that we are 
going to triple, and we are doing it currently, triple our 
methamphetamine training at a State level. It is at a State 
level in the sense of those who receive our funds, because that 
is our point of contact, to provide it for the locals. So if 
you can envision that in 12 States this coming year, for the 
first time, the Bureau of Justice Assistance will be able to 
offer that training to all local law enforcement through the 
State criminal justice entity, this is a huge step forward.
    For us to be able to, in that training, educate law 
enforcement officers on a traffic stop, as an example. When 
they pull over someone's car for a speeding ticket, what have 
you, and approach the car and they see these chemicals in the 
back, many law enforcement officers have no idea what they are 
actually seeing. So it is imperative that we educate the law 
enforcement officers.
    As was mentioned from DEA, it is imperative we educate 
pharmacists and clerks in facilities, whether it be a retail 
facility or a drug store chain, what to look for so that they 
can in fact alert law enforcement. Training is something that 
we can do more of, and that is public education as well. I 
think that so much of that can happen.
    In my own home State we found methamphetamine labs in the 
back of trunks at rest stops. So it is a pervasive issue, but I 
still think there is much more that we can do through training 
and education.
    You had referenced meth in the context of treatment, and 
when you are looking at facilities, Mr. Chairman, you 
referenced the county facilities in your community. In the 
Residential Substance Abuse Treatment Program that our agency 
runs, there are resources to actually invest back into the 
State and local communities so folks can receive treatment 
while they are incarcerated, so we don't maintain that 
revolving door.
    We can continue to make utilization of the Regional 
Information Sharing Systems that are out there that the 
Department of Justice funds because as we know if an epidemic 
occurs, if it is in Fort Wayne, IN, it will soon be in Van 
Wert, Ohio. So it is important for us to continue to educate, 
and the best way to do that is through law enforcement 
information sharing systems such as, in this case, the RISS 
network that is funded by the government and administered 
through our office.
    So, again, we can get you more specific details on who has 
been trained and what is available. I can tell you the LLEBG 
resources and the Byrne resources are heavily involved in 
training initiatives for law enforcement, as well as funding 
the majority of the law enforcement multi-jurisdictional drug 
task forces that are out in the country.
    Ms. McCollum. And that is good, and I support the dollars 
for doing that, but sometimes I have found that other law 
enforcement issues aren't funded in order to increase funding 
into another program, and we need to be cognizant of not 
turning our back on another potential source of crime to fund 
another one.
    I will use Minnesota as the example. Ten percent of the 
methamphetamine, to the best of our knowledge, is from the 
small labs; 90 percent is what is coming in. Now, of that 10 
percent, we need to address it aggressively, we need to 
continue to work with our retailers on that.
    But to just focus overwhelmingly--and each State is going 
to be different--for that 10 percent, when 90 percent of it is 
what is coming in, and we are seeing an increase on that, what 
do we need to do to stop that 90 percent coming in over the 
borders? I mean, we are supposed to be at heightened alert for 
activity now with homeland security, with what is going on with 
our borders, and when we see 90 percent of it not being 
produced locally, but coming in, and the term ``farm Mexico'' 
was used by my law enforcement, I think we still have a huge 
problem going back to homeland security.
    So where is the integration going on with that? What do we 
need to be aware of in Congress to make that more effective? 
Because if we can't keep out methamphetamine, how are we 
keeping out terrorists?
    Mr. Rannazzisi. Well, ma'am, to start, I don't think we are 
concentrating just on the small labs. I think the small labs 
are important because the meth coming from Mexico or other 
countries is produced and it is in the marketplace. When these 
people actually make methamphetamine in STLs, it presents a 
great problem for the health and safety of the community at 
large, and then that----
    Ms. McCollum. Sir, I understand that fully, and that is why 
I prefaced it. I don't take away the seriousness of the 10 
percent. I have law enforcement officers who have had to retire 
early because of going into meth labs and literally having 
their lungs destroyed. I take this very seriously. I had a 
constituent who purchased a home, who ran a daycare in it, and 
it wasn't disclosed in their retail. I understand that. I 
support the actions that the committee is taking on this; we 
need to focus on it.
    But in Minnesota, when 90 percent of the methamphetamine is 
coming in, the prisons are full, there is no treatment 
facility, we have children who are now in our social network 
system. I also want to know what we are doing as a country to 
decrease the amount of methamphetamine that is coming in 
illegal into this country.
    Mr. Rannazzisi. Well, to begin with, we are working with 
our foreign counterparts at the chemical-producing countries. 
We are trying to track the chemical shipments from places like 
China and Germany and India into those chemical-producing 
countries. We are actually asking for voluntary stop of those 
shipments. We are notified of the shipments; we know where they 
are going and we know where the methamphetamine is being 
produced. Say Mexico, for instance. We know that Mexico has 
several production laboratories down there. We are working with 
the Mexican authorities; we are actually training the Mexican 
authorities in clandestine laboratory enforcement so they can 
go out, find and identify these labs, and dismantle them.
    Unfortunately, when the problem moves outside of domestic 
boundaries, we have to work in conjunction with our 
international partners, and we are doing that. We are doing 
that in Mexico and abroad. It is difficult to shut down the 
border for methamphetamine, just as it is for cocaine and 
heroin, because the trafficking groups generally don't send one 
huge load through one particular port of entry.
    What they do is they find very novel approaches to move a 
contraband into the country. If I produce 300 pounds of 
methamphetamine, I am not going to move them all through one 
port of entry; what I am going to do is split the load. That 
way, if I lose two components of the load, I still have two to 
make my profit. And that is what is happening.
    But we still do have superlabs here as well. Not to the 
extent that we had 2 years ago, but we still have production 
labs. So we are working the production labs domestically on an 
enforcement basis with DEA and our local and State 
counterparts, and then we are working abroad in the chemical-
producing countries, where the precursors start, and then in 
the production countries, such as Mexico, where it is being 
manufactured.
    Ms. McCollum. Mr. Chair? I think that because they are two 
very serious ways in which people access these illegal drugs, 
both the small labs here and, as the gentleman pointed out, 
there are some large labs here, but also the international 
trafficking of this over our borders, at a time when we believe 
in Congress that we are spending a lot of money trying to make 
our borders more secure. Both of those maybe need to be 
separated out, as well as this is such a big topic, maybe what 
we need to do, Mr. Chair, with your help, is to break the next 
set of hearings down into smaller components so we can really 
wrestle and get into what we need to do congressionally to put 
an end to this problem.
    Mr. Souder. I appreciate your suggestion, and as we pursue 
the meth problem, that is a good point. I want you to know, as 
well as the other members of the panel and those who are 
listening, that we are having a major internal battle which I 
think, based on everyday changes, that we have made some 
progress on. Speaker Hastert has been taking the lead. 
Obviously, border control and homeland security, the narcotics 
part and homeland security are totally interrelated; they are 
the same people on the border.
    And one of the arguments we are having on the so-called 9/
11 Commission bill is a series of amendments that I had in the 
Homeland Security Committee that the Speaker is advocating to 
strengthen the Air and Marine Division inside Border 
Protection, which is danger of being gutted; to strengthen the 
Counternarcotics Office that didn't even have anything but a 
detailee there, even though Coast Guard, Border Patrol, 
Customs, those legacy agencies are the major part; and to also 
take a number of other steps.
    We have seen the Shadow Wolves in effect disbanded, which 
is a critical part on the Arizona border, and we cannot talk 
about how we are going to control the borders if we disband the 
anti-narcotics operations inside Homeland Security. The 
Department of Homeland Security has to understand that if they 
are in charge of the border, narcotics is part of their 
mission. And this committee has been taking the lead, and we 
need to continue to push that part of it.
    In addition, clearly, if we lose these court rulings on the 
drug dogs, this is a disaster at the borders. There has been a 
local hearing that is going up toward the Federal level that 
would challenge the propriety of drug dog hits at the border, 
and that is one of the only ways that we pick up the random, if 
we don't have a tip. And if we don't have control of the 
border, anything else we talk about becomes more or less 
irrelevant.
    I need to ask a series of questions here which we may not 
have all the answers, but I want to make sure some of these get 
in the record, and we will have some additional questions, 
because we are working toward a package and also what we should 
focus on in hearings in this next year. And I want to followup 
directly with one of the things that Ms. McCollum just asked 
Mr. Rannazzisi.
    The Oregonian newspaper reported that DEA has not actively 
sought information or cooperation from manufacturers or law 
enforcement authorities in India, one of the major 
pseudoephedrine exporters. The Indians, however, claim that 
they are very willing to work with DEA to address the diversion 
program, including by providing DEA with documentation about 
exports to third countries, such as Canada. Does DEA plan to 
increase its efforts in India and elsewhere to monitor and 
track the pseudoephedrine exports to third countries?
    Mr. Rannazzisi. We do work with the Indian government. We 
sit on numerous international committees where there is dialog 
between our staff and the Indian government regarding shipments 
of chemicals. I don't understand where that came from, but that 
is just not the case.
    Mr. Souder. Could you provide us with how many agents in 
India you have working on this, roughly? I realize agents do 
multiple tasks. And also, in particular, the question of third 
countries. In other words, often we are looking directly at us, 
but a lot of this is coming from Mexico and Canada.
    Also, do you and Mr. Burns believe that we need new import 
quotas or controls to prevent diversion of pseudoephedrine?
    Mr. Burns. I didn't get the question.
    Mr. Souder. Do you believe we need new import quotas or 
other controls to prevent diversion of pseudoephedrine?
    Mr. Burns. Yes. I think that is something that would be 
very helpful to address some of the questions that you have 
asked and Congresswoman McCollum and Ranking Member Cummings. 
Let me just try and briefly state this: You have been very 
helpful. Ranking Member, you asked if we need to step back and 
look at the overall picture, and at the Office of National Drug 
Control Policy, that is what we try and do, and rely on good 
numbers for sound policy. You require it, the President 
requires it, Drug Czar John Walters certainly requires it.
    And what we know from the household survey and from 
monitoring the future is that there are currently 19.5 million 
illegal drug users in this country. Some of the most recent 
numbers. Seventy-five percent singularly or co-use marijuana; 
about 6 million are using illegally prescription drugs. That is 
a 150 percent increase in 5 years. That is a problem. About 3 
million cocaine; about 1.5 heroin; and about 1.5 
methamphetamine.
    So why this hearing today and why the Federal Government's 
response so aggressively to methamphetamine? For all the 
reasons that you have stated. We could be here all day, and I 
could try and respond to you what we have been doing in the 
State of Minnesota. I have been there three times in the last 
year. I flew with your senator to small towns all over the 
State; we had hearings. I called them talk-listen sessions.
    Senator Rosen has been very aggressive in gaining the ear 
of the Office of National Drug Control Policy. With your 
Governor, I recently flew around to several small towns and we 
listened again, trying to fix problems one at a time with 
respect to training, literally getting on the phone with law 
enforcement agencies, hooking the up with the Midwest HIDTA, 
which is located close by, and demanding that training 
information and access be made available.
    Ranking Member Cummings, you have one of the best HIDTAs in 
the country, with Director Tom Carr. I know that you have been 
wholly and fully engaged with Director Walters and others not 
only on this problem, but others.
    But the one point that I would like to make, and Mr. 
Rannazzisi has talked about the need to look at the numbers, it 
is because you demand good policy. This National Synthetics 
Drug Action Plan came out less than a month ago. It has taken 
us a long time to define what the issues are with all synthetic 
drugs and to come up with a plan so at some point we can come 
to you with numbers and with recommendations that are 
appropriate.
    And I am going to chair a synthetic drug working group; the 
Plan requires that be set up within 30 days, and the first 
meeting will take place within the next couple of weeks. And 
then I hope, and I say this to all of you, that we will be able 
to come back, as Mr. Rannazzisi has said, with good numbers so 
that you can make good decisions based on sound policy.
    Mr. Souder. We need to get to our second panel, but I have 
some very specifics that I want to have on the record. Did DEA 
support new import quotas or controls to prevent diversion?
    Mr. Rannazzisi. I am sorry, sir, could you repeat that 
question?
    Mr. Souder. Do you support new import quotas or other 
controls to prevent diversion of pseudoephedrine?
    Mr. Rannazzisi. I believe that is in the National Drug 
Synthetic Action Plan, and I do believe we support that, 
absolutely.
    Mr. Souder. Another question has to do with Glowtel. There 
have been lots of news stories around the country that says 
when Glowtel is added to anhydrous ammonia, it dyes it bright 
pink. Apparently, the bright pink color transfers to any meth 
made with anhydrous ammonia and actually stains any users of 
the drug. Should the Government promote the use of this 
additive?
    Mr. Rannazzisi. I know about the additive, I just don't 
know enough to promote or tell you that it is a good program. I 
do know that there are a couple of other studies out there, 
including University of Iowa----
    Mr. Souder. Are you investigating this or is ONDCP or 
Justice?
    Mr. Rannazzisi. I believe our lab program is investigating 
it, our forensic laboratory program is looking into it.
    Mr. Souder. Can you have somebody respond to the committee 
on any investigations on Glowtel?
    Mr. Rannazzisi. Yes.
    Mr. Souder. Also, The Oregonian newspaper said Pfizer has 
announced it would soon introduce a new form of Sudafed which 
contains, instead of pseudoephedrine, a compound called 
phenylephrine. And you, earlier, just referred to some acid 
that sounded like it was the same basic component, you said 
phenyl acid?
    Mr. Rannazzisi. Phenylacidic acid. It is a different 
precursor. It was one of the primary precursors used way back.
    Mr. Souder. So do you believe that such chemicals like that 
could prevent meth use, or will they be able to transfer like 
they have transferred from ephedrine to pseudoephedrine?
    Mr. Rannazzisi. If we are talking about the drug 
phenylephrine, our lab has done studies with phenylephrine, and 
they do not believe that you can manufacture methamphetamine 
from that substance.
    Mr. Souder. So that becomes a very interesting question, 
because there may be more than one way to tackle this problem.
    We have some other written questions I want to submit, but 
I want to say both to the Department of Justice and the CTAC 
Program that what we have heard in State after State from law 
enforcement officials is they appreciate the training. Their 
No. 1 problem right now is not the training. They don't have 
cleanup equipment. In CTAC or from Bureau of Justice 
Assistance, these mobile labs are very expensive.
    What is happening is we are freelancing in the 
appropriations process. I, for 2 straight years, have gotten 
money for Indiana that way; Tennessee has gotten money for 
their State; Hawaii has gotten money for their State. What is 
happening, because, bluntly put, the administration is not 
responding, in my opinion, to what local law enforcement is 
asking, individual Members of Congress are freelancing and 
earmarking your appropriations.
    And we need to look at and listen at the grassroots level; 
otherwise, we are going to have chaos in our appropriations 
process. With no national drug control plan, we are going to 
have individual Members of Congress responding to what they are 
hearing from the grassroots level; and that is one thing that 
we need to look at in the mix of the equipment and how to do 
that.
    Does anybody else have anything on the first panel?
    Mr. Cummings. I just have two questions.
    And I will submit some written questions, gentlemen. I want 
to thank you for your testimony.
    Mr. Herraiz, do meth addicts present any unique problems 
with regard to treatment, being amenable to treatment? Do you 
know?
    Mr. Herraiz. Methamphetamine?
    Mr. Cummings. Addicts. In other words, I am thinking about 
treatment. I was just listening to what the chairman was 
saying, different ways to try to approach this whole issue. Do 
they present any unique problems with regard to being amenable 
to treatment? If you know. You may not even know.
    Mr. Herraiz. Mr. Chairman, Congressman Cummings, yes. Meth 
is highly addictive. And those statistics are available. If you 
look at data from CSAP and others, SAMHSA, you will find 
statistics that will show that. That is a correct assumption.
    Mr. Cummings. The reason why I mention it is because I am 
trying to figure out the drug courts and all the things that we 
are trying. I am just wondering if we need to look at that. An 
maybe the folk coming up will mention something about that. But 
I was just trying to figure out whether they are more difficult 
to treat. Because I have been a big proponent of treatment. I 
just want to make sure that we are doing what we need to be 
doing in the area. And I am sure somebody will address that.
    Mr. Burns. Congressman, if it is helpful, your 
appropriation to the President's Access to Recover Program, a 
grant was made to the State of Tennessee, and pursuant to that 
grant they are in the process of answering the question that 
you just asked. Currently, everything is anecdotal. As I travel 
the country, programs are from 7 days to a year and a half.
    Mr. Cummings. Thank you all very much.
    Ms. McCollum. Mr. Chair, to followup on that, maybe we can, 
if you have the time to break this down and out a little more, 
have someone in from CDC and NIH. And I just handed Mr. 
Cummings two articles. They do not feel that any of the 
treatment programs that are currently out there are successful 
at all in really addressing hardcore addiction on this.
    So what we are doing is we are just recycling them through 
the prison population. They come back, more crimes are 
committed, and it is a never-ending cycle. That is why, as I 
mentioned earlier, law enforcement is starting to see literally 
in families three generations of abuse on this. So treatment 
and that does become a key thing we need to talk about.
    Mr. Souder. Thank you. We have been the only State that has 
a 10-year tracking on this. Congressman Case asked us to do a 
hearing in Hawaii, because they have the biggest earmark, I 
think it was $5 million for meth, in the appropriations process 
through Senator Akaka, or I believe, Inouye. And they have 
actual data of different types of patterns in meth at their 
schools over a 10-year tracking; they have it in treatment 
programs as well, and they have one.
    We are trying to find even programs that are geared 
specifically toward meth treatment, but they are hard to find. 
It has been hard, at this point, even to get a hearing cluster 
enough together to treat it, but that would be one of our goals 
for this coming year. I appreciate your help with that. And it 
is a good idea to get CDC and some of the other groups in.
    I very much appreciate your patience. We will have 
additional written questions for you, and thank you for your 
continued work in this field. We have made progress, and we 
shouldn't deny that, and marijuana has been fairly dramatic, 
which is a precursor drug for all meth users. We have made 
progress, and hopefully that will pay off over time. But short-
term we have an exploding problem across the country that is 
growing faster than even our statistical ability to keep up 
with it in meth, and we need to respond to that. We appreciate 
your willingness to come today.
    Mr. Rannazzisi. Thank you, Mr. Chairman.
    Mr. Souder. With that, could the second panel come forward? 
Mr. Lonnie Wright, Sheriff Bundy, Lieutenant Colby, Mr. 
Heerens, Dr. Suydam, and Ms. Wagner.
    Thank you. We have a new panel to swear in. Could each of 
you stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    We have been joined by our distinguished colleague from the 
State of Kansas, who has been very concerned with this issue 
for a long period of time, Mr. Moran, and he would like to 
personally introduce one of the witnesses, and we will start 
with that witness today.
    Mr. Moran. Mr. Chairman and Mr. Cummings, thank you very 
much for the honor of joining you on the dais today, and I am 
here to commend you for your subcommittee's work. I know, as a 
Member of Congress from a very rural district, that this is a 
significant issue for my constituents, for my State, and, in 
fact, I have fought long to bring to the attention of the 
administration, as well as Members of Congress, that I think 
challenges we face with drugs in this country are often thought 
of to be an urban problem. Woefully not true, and particularly 
not true with methamphetamine. So I am honored to be here today 
to join you and to particularly introduce one of the witnesses 
on this panel.
    This issue receives significant attention in Kansas. In 
1994 we had four meth busts; in 2004 we will have between five 
and 600. When our former colleague, Mr. Hutchinson, was at DEA, 
he has been to Kansas to meet with law enforcement. I had the 
Judiciary Subcommittee on Crime come to Kansas and conduct a 
hearing on rural issues related to methamphetamine.
    You have before you today one of our experts, our sheriff 
from Rice County, KS, Sheriff Bundy. The sheriff is highly 
regarded in law enforcement circles in Kansas and has been 
actively involved in law enforcement for more than two decades, 
and he comes from a county that, in some ways, has a larger 
population than many of my other counties, with, I would guess, 
a population of around 10,000 people in the entire county. This 
is one of my urban sheriffs, and we are delighted to have his 
perspective. And I welcome him and thank him for taking the 
time in his dedication to the cause to be here today.
    And I thank you, Mr. Chairman and Mr. Cummings, for 
allowing me to join you.
    Mr. Souder. Thank you.
    Sheriff, you have the floor.

 STATEMENTS OF SHERIFF STEVE BUNDY, RICE COUNTY, KS, SHERIFF'S 
    DEPARTMENT; LONNIE WRIGHT, DIRECTOR, OKLAHOMA BUREAU OF 
  NARCOTICS AND DANGEROUS DRUGS; LIEUTENANT GEORGE E. COLBY, 
  DIVISION COMMANDER/PROJECT DIRECTOR, ALLEN COUNTY DRUG TASK 
FORCE, ALLEN COUNTY, IN, SHERIFF'S DEPARTMENT; JOSEPH HEERENS, 
SENIOR VICE PRESIDENT, GOVERNMENT AFFAIRS, MARSH SUPERMARKETS, 
  INC., ON BEHALF OF THE FOOD MARKETING INSTITUTE; DR. LINDA 
 SUYDAM, PRESIDENT, CONSUMER HEALTHCARE PRODUCTS ASSOCIATION; 
   AND MARY ANN WAGNER, VICE PRESIDENT, PHARMACY REGULATORY 
       AFFAIRS, NATIONAL ASSOCIATION OF CHAIN DRUG STORES

    Mr. Bundy. Congressman Moran and Chairman Souder, Raking 
Member Cummings, and other distinguished members, I am very 
happy to be here today, and hope to provide some insight into 
some tough decisions you have to make in the near future.
    As Congressman Moran stated, I have been in law enforcement 
for about two decades in Kansas. I am a certified meth lab 
investigator. Matter of fact, I was at a meth lab for 9 hours 
right before flying out here to be with you. So I think I might 
be able to offer you some insights that may be helpful.
    We are a very rural county; we have a population of about 
10,000; we are 750 square miles. There is myself and four 
officers who provide service for those 10,500 people, which is 
representative of about 75 percent of Kansas law enforcement. 
And I think if we would look at it even beyond the boundaries 
of Kansas, that is not so non-typical for western United States 
once you leave this fine area.
    We do have a serious methamphetamine problem. One of the 
reasons is the very qualities we enjoy is our agricultural 
nature, the wide open spaces. The things that are most 
appealing to those involved in producing methamphetamine draws 
them to our county. We don't have the resources to do a lot 
with that, given the five people, so we came up with a program 
that is called Meth Watch in Kansas. I may briefly tell you how 
that works for us. And it simply was a recognition and an 
admission by myself that my resources were overwhelmed with the 
problem.
    We went to the community and said, we need your help. We 
educated the citizens on the very problem with methamphetamine 
for our area. And once we had got them to partner with us and 
see how large of a problem this was, the very scope of it, how 
it affected them and their taxes, and overwhelmed the resources 
of law enforcement, that we weren't responding to them in a 
timely manner they wished, they were very eager to partner with 
us in this battle against methamphetamine.
    The next group we brought into that were the retailers. And 
the interesting insight to that was that they actually were 
calling me, asking what can we do, because we had such 
tremendous support from the community, as well as from the 
local media, on really detailing, covering all the problems 
that we were encountering and just the frequency and the amount 
of work we were having to put into methamphetamine 
investigations. So retailers came on board very easily and 
anxiously, and wanted to partner with us. And the community had 
an expectation of those retailers to partner with them and law 
enforcement in this very program.
    We made cases through that with great regularity. If it is 
not just the retailers reporting suspicious transactions or odd 
purchases, or they recognize just the very ingredients you have 
talked today in the shopping carts coming through the lines, if 
they aren't calling, we are getting calls from the citizens of 
Kansas that have been trained.
    And when they are in line, they notice these shopping carts 
behind them, or they will notice the peculiar behavior of a 
multitude of individuals coming in and splitting up and buying 
these purchases and then lining up in the checkout line. So it 
has been very effective for us in Kansas to approach it at the 
community level through a very strong education piece that was 
only possible by a small grant through the Kansas 
Methamphetamine Project of $3,000 is really what initiated this 
Meth Watch program. So I don't want you to underestimate the 
value of the Federal dollars coming down the State levels, and 
from the State level to the local level, and what $3,000 can 
be, because it has had a huge impact in my county.
    My neighbors to the south, the great State of Oklahoma, 
have introduced Schedule V, and I know the early data says that 
is working well for them. I know there are some border counties 
in Kansas that are reporting an influx of Oklahoma residents 
coming up to purchase that, and I hope it works.
    I am a little guarded, as you have heard earlier, on that, 
because my experience in 20 years, it is very hard to regulate 
or legislate addiction; and relocating products, limiting 
products, it is still a very hard thing to take away from these 
people, because I work with them everyday. Truly, a portion of 
every workday is dedicated to methamphetamine work in a county 
my size, which hinders the civil process and the jail 
operation, and all the other services that a sheriff's office 
is forced to provide.
    So any tool we can come up with that helps is great. The 
grants were great, not only on the education front for the Meth 
Watch, but also in my training. I am the only meth investigator 
for clandestine labs in our county, which puts me at safety 
risk, as well as the citizens to only be able to provide one 
officer for that service. And, unfortunately, there has not 
been funding available in our State to train any more of my 
officers, so I can't partner up with another officer in these 
dangerous situations. So I encourage you to expand the grant 
portion of your investigation here, because it is critical to 
local law enforcement.
    You asked earlier about Glowtel. I would very much support 
that. We take an anhydrous ammonia theft daily and we recover 
anhydrous ammonia in any kind of container imaginable. So 
anything you can do to help the rural America on that front 
would be greatly appreciated too.
    In summary, it is just truly all my life has become is an 
officer. When I started in 1979, I was in uniform like this 
now. More often than not I look like a spaceman working for 
NASA in a suit with breathing apparatus and testing equipment, 
things like that. So I would encourage you to listen carefully 
today and be very open-minded, and come up with a comprehensive 
approach that would assist rural law enforcement. And I would 
be happy to answer your questions at the conclusion.
    [The prepared statement of Mr. Bundy follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.033
    
    [GRAPHIC] [TIFF OMITTED] T0084.034
    
    [GRAPHIC] [TIFF OMITTED] T0084.035
    
    [GRAPHIC] [TIFF OMITTED] T0084.036
    
    [GRAPHIC] [TIFF OMITTED] T0084.037
    
    [GRAPHIC] [TIFF OMITTED] T0084.038
    
    [GRAPHIC] [TIFF OMITTED] T0084.039
    
    Mr. Souder. Thank you. And as I earlier stated, all of your 
written statements will be submitted in full of any witness.
    I want to depart from our normal procedure just a little, 
because we have not, in a Washington hearing, had anybody in 
detail explain who does it here. We have done it in the field 
hearings; we hear it all the time. You said it took you 9 
hours. Why did it take you 9 hours?
    Mr. Bundy. Because it was a small lab, honestly. There have 
been labs that I have been at for 30, 32, 35 hours without a 
break, without stopping. It is just the complexity of the 
process; the hazards that are left behind that need to be 
remediated correctly; to collect new evidence. Most of these 
scenes have hundreds of pieces of evidence that have to be 
photographed and documented and collected. There are disposal 
orders that have to be sought from the judicial system to allow 
us to get rid of some evidence that is just too hazardous to 
store for trial.
    It is just a very large undertaking, and that is even 
further complicated by the rural nature of Kansas, in that 
oftentimes these sites are 15, 20, 40 miles from other 
resources. So when you do get a contracted company to help with 
the final disposal of the identified hazards, it just pretty 
much eats into an entire day.
    Mr. Souder. Well, I thank you for that, because we have 
heard testimony across the country that particularly in small, 
10,000, up to 80,000 counties, 4 to 9 hours. Mr. Wright told me 
out in the hall earlier 12 hours; and Oklahoma has been as 
long. You can go out there, your entire drug task force is tied 
up, in some counties your entire police force is tied up all 
day long. It means nothing else is protected while you are out 
there dealing with one tiny lab. And we clearly have to have 
some way to kind of look at this problem in a macro way, as 
well as in the micro way.
    Now I would like to recognize Mr. Lonnie Wright, who is the 
director of the Oklahoma Bureau of Narcotics and Dangerous 
Drugs.
    Mr. Wright. Thank you, Chairman Souder, Ranking Member 
Cummings, and the rest of the distinguished members here.
    I am probably the only guy that will be able to give you 
good news today. In Oklahoma we have regulated pseudoephedrine, 
and methamphetamine labs have dropped off dramatically. But 
before I talk about that and the law, I would like to tell you 
why we took such a step as regulating pseudoephedrine and 
making it a controlled substance.
    Like many other States, in our region, anyway, beginning in 
1994, we have seen a steady increase in methamphetamine 
laboratories. I think the last few years we have worked over 
1200 laboratories. And I know you have discussed 
methamphetamine lab reporting. In my opinion, these numbers are 
grossly under-reported. I can tell you that in many cases, when 
deputies in rural areas encounter boxed labs and trash that is 
often dumped by people who manufacture every few days, they 
don't wait 19 hours or 12 hours or whatever, they simply dump 
it in the trash. So those kind of statistics typically aren't 
reported.
    We don't see superlabs in Oklahoma; we haven't since the 
late 1980's. All we see are addict-operated laboratories. These 
laboratories are operated by people who are simply supplying 
their own addiction, and that of a few of their close friends. 
This is an addiction-based crime that we are encountering, not 
an economic-based crime like in years past. These are not 
laboratories with giant flasks that look like a chemistry 
department at a university like we have seen in the past; these 
are a few fruit jars, some coffee filters, and some household 
products. And at the onset of this epidemic, I think a lot of 
times law enforcement stumbled across these products and didn't 
really know that they were in a meth lab. Sometimes it is 
difficult for the untrained person to tell.
    In Oklahoma we have spent countless millions of dollars. We 
have done all the traditional things that we thought were 
necessary to treat the symptoms of this problem. But, yet, 
every year, as you can see from our graph, those numbers just 
go up and up and up, and seem to have no end in sight. Our 
jails are full of methamphetamine addicts; our treatment beds 
are full; our resources are strained to the hilt. We were 
pretty desperate and simply didn't know what to do.
    We initially had a 20-to-life sentence for manufacturing 
methamphetamine. We had to reduce that in part to accommodate 
the vast numbers of people that were apprehended in 
methamphetamine laboratories.
    One thing that I think is very important to note here, and 
it made a difference when we had these sort of hearings in 
Oklahoma, for understanding purposes: you don't mix a number of 
household products together and get methamphetamine. You start 
with pseudoephedrine that is molecularly very similar to 
methamphetamine, in fact, it is one O-H molecule different than 
methamphetamine. And you use those household products to burn 
that O-H molecule off in just a few short hours with this 
household apparatus and these products.
    In reality, a methamphetamine addict looks at these cold 
medications on the shelf like it is methamphetamine, not like 
we look at it, as medicine. So that is the single key issue to 
focus on if you want to solve the problem. You have to keep 
pseudoephedrine out of the hands of those who would simply 
convert it in a few hours.
    One of the differences, I think, between superlaboratories 
and addicts who buy methamphetamine from distribution networks, 
and those who manufacture their own is those who purchase it 
from distribution networks have to come up with the money. They 
are limited somewhat in their addiction and their ability to 
get as much methamphetamine as you want. When you can 
manufacture methamphetamine in your home for a fraction of the 
cost of what it would cost to buy it on the street, you can 
have all of it you want and it is basically pure. There is 
nothing to limit your addiction. So what we see is these people 
that are able to make as much as they want; their addiction 
becomes chronic very quickly. This is a terribly addictive 
drug, as you well know.
    Prolonged chronic addiction leads to something that we have 
been told is called the methamphetamine psychosis. A person who 
has methamphetamine psychosis is clinically indistinguishable 
from a paranoid schizophrenic, as we are told by our medical 
experts in Oklahoma. They are, of course, unpredictable, and 
violent behavior is often a result of that unpredictability.
    In that sense, in the past few years in Oklahoma, with this 
epidemic reaching a terrible state, the violence and the 
carnage associated with methamphetamine manufacturing and 
addiction has really resulted in a public safety problem and an 
issue. I think that is one of the reasons that we focus on that 
in State and local law enforcement more than maybe Mexican drug 
cartels and the like, because it is such a public safety issue.
    About a year ago we had an interim study in our 
legislature, much as you are holding here, and we brought in 
experts from all of the various disciplines to try to 
understand this. One thing was clear: what we were doing simply 
wasn't working. We basically, in essence, concluded that as 
long as methamphetamine addicts have access to pseudoephedrine, 
there won't be any diminution of methamphetamine labs, the mom-
and-pop type labs that we are talking about. Our challenge, 
what we became: How do you keep pseudoephedrine out of the 
hands of those who would turn it into methamphetamine in a few 
short hours, while not restricting access to those who have 
nasal congestion? Pseudoephedrine is a nasal congestion 
medicine. We came up with the only solution we could, and that 
was to regulate it.
    What we did in Oklahoma, to make a long story short, we 
regulated all pseudoephedrine as a Schedule V controlled 
dangerous substance. We moved those starch-based tablets and 
hard gel caps behind the counter at the pharmacy. Those are the 
products that we see in methamphetamine laboratories. We 
require customers to show a photo identification and to sign a 
log book. We limit sales to nine grams of pseudoephedrine per 
running 30-day period. We ask individual pharmacists to look at 
that log book and not sell individuals more than that nine 
grams.
    And we are presently, pursuant to a COPS grant we are very 
grateful for, developing an online, State-wide, realtime log 
book that would enable pharmacists to access that data and know 
whether or not that person had purchased more than the nine 
grams in that 30-day period, thus having the ability to limit 
that and not let people have more pseudoephedrine than is 
necessary.
    We made exceptions. We exempted products that we have not 
seen in methamphetamine laboratories that contain 
pseudoephedrine. Those products are the squishy liquid-filled 
gel caps--we haven't encountered that--and all of the syrups.
    In total, the products that we moved behind the counter, 
say at a typical Walgreen's store, would be about 100 products, 
including their Equate brands. So this was really a quite 
doable deal.
    Our legislature passed this idea on April 7th of this year. 
The only opposition we had after great State-wide debate was 
the industry; and they opposed it. The citizens of the State of 
Oklahoma were pretty much tired of methamphetamine and problems 
associated with it, and I believe supported it. I have heard 
very few complaints from anyone, and we think that it is quite 
reasonable to have a minor inconvenience to treat nasal 
congestion, compared to the carnage that is associated with 
continued methamphetamine addiction.
    As you will note, and others here agree, these are 
preliminary numbers that we are seeing. But just 
instantaneously, the number of methamphetamine laboratories 
submitted to our State's crime laboratories dropped off by 
about 50 percent, and have steadily continued to drop in the 
months following.
    For example, our 27 drug task forces that are Byrne funded 
and very important, by the way, around the State do the lion's 
share of methamphetamine laboratory investigations. In 2003 
they averaged 92.4 meth labs per month; they presently, as of 
August, reported 32 meth labs. That is about a 65 percent 
reduction. The same sort of reductions have been seen in our 
metropolitan areas. The Oklahoma City Police Department numbers 
have dropped off from an average of 14.5 per month to I think 
September they worked 2 meth labs; I think in October they 
worked 4 meth labs. And so on. So we are real encouraged by 
this.
    The bottom line is if these addicts can't have access to 
unlimited supplies of pseudoephedrine, they can't manufacture 
methamphetamine. You cannot manufacture that without having 
pseudoephedrine. The key to what you are trying to accomplish 
here is how do you keep that out of the addicts' hands.
    If I could say, there is a lot of anecdotal information.
    Mr. Souder. You need to conclude. We have given you 
generous time here.
    Mr. Wright. Sir?
    Mr. Souder. Make a concluding statement, because we have a 
5-minute clock, and I have let you about double that.
    Mr. Wright. OK. I am basically finished, and I apologize, 
sir.
    We are looking at where pseudoephedrine presently comes 
from. Obviously it is coming from adjacent States and areas 
close to the border. We see people going from pharmacy to 
pharmacy, signing the log, and that is called smurfing. We hope 
to close that gap. And we have a few pharmacies that are yet to 
become compliant. So we are real excited about our results. And 
all these Federal programs you have talked about here, 
particularly Byrne and COPS, are very valuable to us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.040
    
    [GRAPHIC] [TIFF OMITTED] T0084.041
    
    [GRAPHIC] [TIFF OMITTED] T0084.042
    
    [GRAPHIC] [TIFF OMITTED] T0084.043
    
    [GRAPHIC] [TIFF OMITTED] T0084.044
    
    Mr. Souder. Well, thank you. And I wanted to make sure you 
had a full description of the program in, because we probably 
had five hearings in the country now and description, and 
almost everywhere we go Oklahoma's program comes up. So we 
needed to have a full and thorough explanation of the Oklahoma 
program. And we are going to have a number of witnesses here 
who have concerns about how we do this at a Federal level, so I 
think that helped lay the groundwork for it.
    Lieutenant Colby is from my hometown of Fort Wayne, IN, 
which is a city larger than most areas that are affected by 
meth, as he states in his written testimony. But he has been 
the chief narcotics person in our region for many years, and 
not only has the city of Fort Wayne, but coordinates the drug 
task force that goes beyond the city.
    You have been through crack, you have been through all 
different types of narcotic challenges in Fort Wayne, including 
just a few years ago we had this boost up in LSD, and things 
come and go. This one appears to be different. You have talked 
to me before about the importance of the Byrne Grants, about 
RISS, and the information network, and I just wondered if you 
could share some of your thoughts about what is happening in 
Indiana and some of the historical perspective with what we are 
looking at here.
    Lieutenant Colby. Thank you very much, Chairman Souder, for 
asking me to share my views on State and local meth enforcement 
today. I commend you on drawing attention to the meth 
enforcement challenge by holding this hearing.
    We are in the midst of a crisis; last year in Indiana, law 
enforcement seized 1,260 clandestine meth labs. The total in 
2004 will almost certainly be larger. In fact, just last Friday 
the Indiana State Police reported to me the State Police alone 
has responded to 973 labs so far this year.
    I can tell you that this problem, at the moment, affects 
rural areas more than it does affect our larger jurisdictions. 
The sky-high costs of taking down and dismantling meth labs is 
being carried by agencies with relatively very small budgets. 
We have learned to be very efficient in what we do, but we know 
we could do better if we had some more resources. To do better, 
we need your help.
    Alongside the devastating physical impact of meth on 
abusers, the saddest aspect of the meth problem is the so-
called drug-endangered children issue. Investigators in Indiana 
often encounter children in clan lab sites. We remove these 
children from immediate danger and take them to local child 
protective agency services to make sure that these children are 
tested for the presence of meth and any other toxic chemicals 
in their bodies. Parents who subject their children or kids to 
these toxic waste sites are being held accountable by the use 
of child endangerment laws.
    More than other illegal drugs, meth enforcement requires a 
high degree of training and specialization for the officers who 
deal with it. Many of our officers have received specialized 
training and equipment provided by Federal agencies such as 
DEA. This training enables us more effectively to size and 
dismantle clan labs. We especially appreciate the training on 
how to enter operating labs, taking control of the sites and 
halting production.
    Let me give you an idea of the costs that we have been 
bearing in dealing with this problem. Specialized vehicles and 
equipment are very necessary to protect officers responding to 
hazardous sites and are very expensive. Appropriate training 
absolutely is essential, but is time-consuming and expensive. 
Waiting for qualified cleanup companies to arrive on the scene 
of an active lab takes 2 to 4 hours, during which officers who 
are on the payroll clock have to guard the site. They use part 
or almost all of a shift responding to just one meth lab. The 
real impact is on the bottom line. Hazardous material must be 
disposed of under strict government regulations.
    Faced with the nature of the meth problem, we cannot afford 
to just stand by; we have no choice but to attack the clan 
labs. But the costs are enormous. We are left with little 
choice but to appeal to our State leaders and you here in 
Washington to give us a hand.
    Narcotics officers throughout the State of Indiana are 
supporting efforts in our State legislature to pass a bill that 
would require Indiana retailers to demand photo identification 
and signature in a register book in order to purchase over-the-
counter products containing ephedrine and pseudoephedrine. I 
can tell you that we have closely watched the efforts of the 
State of Oklahoma, and we are aware that meth lab seizures are 
down about 50 percent from a year ago. We think that something 
can be learned from this lesson.
    I believe that based on the experience from States moving 
ahead with proposals that place common-sense restrictions on 
how certain products are sold, stored, and displayed can cause 
a significant upset in clan lab meth production. I think you 
should consider a Federal law that addresses these issues. You 
just might cause a real disruption in meth production at the 
small town mom-and-pop labs that are plaguing rural America.
    As a drug task force commander in Indiana, I can tell you 
that funding that comes from the Edward Byrne Memorial Formula 
Grant Program is critical in helping us tackle the meth 
problem. I know there are proposals to change the Byrne 
program, but I want to strongly urge you, Mr. Chairman, to 
fight to preserve the focus on Byrne and on Drug Enforcement 
efforts. Task force operations that Byrne funds are absolutely 
essential and effective pieces of overall illegal drug 
enforcement strategies. As echoed by the National Narcotics 
Officers Association's Coalition and the Indiana Drug 
Enforcement Association, Byrne Formula grants must continue, 
and the focus must remain on drug enforcement activities.
    Providing the means for police officers across the United 
States to work in multi-jurisdictional drug task forces has 
created thousands of drug-related intelligence leads, gang-
related intelligence, and huge numbers of arrests. 
Neighborhoods are safer because of these efforts. In Indiana 
alone, we have 34 drug task forces funded by Byrne and a task 
force of over 200 full-time narcotics officers. State and local 
enforcement spends billions every year on drug enforcement, but 
the funding provided by Byrne is the magnet that attracts 
different agencies to give them incentives to cooperate.
    In the meth investigations, we found that importation for 
methamphetamine from superlabs located outside the United 
States is a major problem. As local law enforcement, we fully 
support the Federal anti-drug trafficking efforts of the 
southwest border. We also understand that California is a very 
significant source of meth production in huge superlabs. 
Because of a lot of the meth that makes its way to Indiana, we 
support these efforts to halt major production and trafficking 
activities.
    Effective methamphetamine enforcement means a strong 
support for training and equipment, but it also means 
reinforcing task force cooperation throughout the Byrne 
program, it means robust funding for programs such as the 
Regional Information Sharing System [RISS] that dramatically 
improve cooperative efforts, and the specialized meth training 
provided through the program such as the Center for Drug Task 
Force Training. RISS is the information-sharing intelligence 
highway that is available to thousands of enforcement agencies 
across the country. This program has proven effective over many 
of the years and the investment as a result of the cooperation 
of more effective enforcement.
    The State of Indiana established the Methamphetamine Abuse 
Task Force, of which a copy is attached to my testimony for 
your review. This Task Force was organized in July 2004 and 
represents law enforcement agencies, youth services, and family 
and social services.
    As law enforcement officers, we are sworn to protect the 
citizens. As we continue to fight the growth in meth abuse and 
production, strong Federal support for meth enforcement, 
training, and equipment is absolutely critical. By now most of 
the people understand the meth problem, but we in law 
enforcement know what it takes to make real progress against 
it.
    Thank you, Chairman Souder, for seeking our input, and I 
look forward to continuing to provide any guidance you and your 
staff needs. Thank you.
    [The prepared statement of Lieutenant Colby follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.045
    
    [GRAPHIC] [TIFF OMITTED] T0084.046
    
    [GRAPHIC] [TIFF OMITTED] T0084.047
    
    [GRAPHIC] [TIFF OMITTED] T0084.048
    
    [GRAPHIC] [TIFF OMITTED] T0084.049
    
    [GRAPHIC] [TIFF OMITTED] T0084.050
    
    [GRAPHIC] [TIFF OMITTED] T0084.051
    
    [GRAPHIC] [TIFF OMITTED] T0084.052
    
    [GRAPHIC] [TIFF OMITTED] T0084.053
    
    [GRAPHIC] [TIFF OMITTED] T0084.054
    
    [GRAPHIC] [TIFF OMITTED] T0084.055
    
    [GRAPHIC] [TIFF OMITTED] T0084.056
    
    [GRAPHIC] [TIFF OMITTED] T0084.057
    
    [GRAPHIC] [TIFF OMITTED] T0084.058
    
    [GRAPHIC] [TIFF OMITTED] T0084.059
    
    [GRAPHIC] [TIFF OMITTED] T0084.060
    
    [GRAPHIC] [TIFF OMITTED] T0084.061
    
    [GRAPHIC] [TIFF OMITTED] T0084.062
    
    [GRAPHIC] [TIFF OMITTED] T0084.063
    
    [GRAPHIC] [TIFF OMITTED] T0084.064
    
    [GRAPHIC] [TIFF OMITTED] T0084.065
    
    [GRAPHIC] [TIFF OMITTED] T0084.066
    
    [GRAPHIC] [TIFF OMITTED] T0084.067
    
    Mr. Souder. Thank you.
    As we tackle this difficult issue, as we have done in a 
couple of other hearings, it is important we hear what impact 
it has on others as well. Not everybody, in fact a very small 
percent, who use pseudoephedrine are in fact drug addicts. And 
our first witness in this group is Mr. Joseph Heerens, Senior 
Vice President of Government Affairs for Marsh Supermarkets, on 
behalf of the Food Marketing Institute, another Hoosier, and 
representing a Hoosier firm that is a long-time family grocery 
business that has expanded across the State of Indiana.
    Mr. Heerens. Mr. Chairman and members of the subcommittee, 
I am Joseph R. Heerens. I am the Senior Vice President of 
Government Affairs for Marsh Supermarkets, headquartered in 
Indianapolis, IN. My statement today is on behalf of Marsh 
Supermarkets and the Food Marketing Institute.
    To effectively combat the illegal diversion of chemical 
precursors, we need a comprehensive strategy and partnership 
between law enforcement, our regulatory agencies, 
manufacturers, and the retail community. But we have serious 
concerns about imposing stringent controls on precursor 
chemicals at the retail level. I am specifically referring to 
the Oklahoma law that relegates cough and cold products to 
Schedule V status.
    Under the Oklahoma model, only stores that have a pharmacy 
department are allowed to sell these products, and these 
products must be kept behind the pharmacy counter. For our 
industry, a Schedule V approach is very troublesome. That is 
because an overwhelming majority of grocery stores in the 
United States do not have a pharmacy department. For example, 
my company currently operates approximately 120 supermarkets in 
Indiana and Ohio, but only 46 of them have a pharmacy 
department.
    Therefore, under the Oklahoma model, more than 60 percent 
of our stores could not sell pseudoephedrine products that our 
customers expect us to carry to meet their shopping needs. At 
the national level, 79 percent of grocery stores do not have an 
in-store pharmacy. In other words, four out of every five 
grocery stores in the United States would be taken, in large 
part, out of the cough and cold business.
    Of our 46 stores with pharmacy departments, store hours are 
quite different from hours of operation in the pharmacy 
department. Most of our stores are open 24 hours to serve our 
customers who shop at all hours of the day and night. In 
comparison, our pharmacy departments are typically open less 
than 12 hours on weekdays and less than 8 hours on weekends. 
Therefore, even if the store is open for business, if the 
pharmacy department is closed or if the pharmacist is not on 
duty, sales of cough and cold products would not be permitted 
and our customers would have to shop elsewhere to meet their 
needs in this respect. This causes us great concern.
    A Schedule V approach would also present a number of 
operational challenges for pharmacy departments in grocery 
stores. For example, the average Marsh Supermarket typically 
carries on its retail shelves more than 150 types of cough and 
cold products. If we have to keep these products behind the 
pharmacy counter, my company would likely have to reduce the 
number of these products to no more than a few dozen. This is 
due to space limitations in the existing pharmacy departments. 
As such, Schedule V classification would mean less choice for 
our customers, as well as dramatically reduced customer access.
    It is also likely that Schedule V would force my company to 
spend a lot of money on construction to reconfigure our store 
layouts to make the pharmacy departments larger in order to 
facilitate new work flow and to accommodate the relocation and 
placement of these products behind the pharmacy counter.
    Additionally, Schedule V restrictions raise quality-of-care 
issues for our pharmacy operations. Under Schedule V, only the 
pharmacist or the pharmacy technician would be permitted to 
sell these products, which means less time for them to carry 
out their primary professional duties of preparing and 
dispensing prescriptions and consulting with customers about 
the safe and effective use of their prescription medications.
    Schedule V poses problems for supermarket companies and 
their customers who have a legitimate need for these products 
in order to treat their coughs and colds. There would be 
reduced customer access and customer inconvenience because 
their local grocery store, which they shop more than two times 
each week, would not be allowed to sell these products, or, if 
it contained a pharmacy department, would be allowed to sell 
these products, but only behind the pharmacy counter.
    Schedule V may also mean higher prices because sales will 
be restricted and the pharmacist would be required to ask for 
photo ID and have the customer sign a written log.
    Finally, Schedule V could not come at a more inopportune 
time, with the current flu vaccine shortages here in the United 
States.
    The supermarket industry applauds the work of the law 
enforcement community in its efforts against methamphetamine, 
but we do not believe Schedule V is the right solution. 
Instead, we advocate for a more comprehensive approach for 
reducing methamphetamine production, trafficking, and abuse.
    In this regard, the supermarket industry strongly supports 
the following initiatives: first, elimination of the blister 
pack exemption; second, a national uniformity threshold sales 
limit of six grams; third, greater regulatory authority, 
controls, tracking and quota limits over imports and the sale 
of bulk chemicals of ephedrine and pseudoephedrine; fourth, a 
ban on Internet sales of precursor chemicals; fifth, promotion 
and funding of educational training programs for store 
employees concerning suspicious pseudoephedrine purchases 
(i.e., the Meth Watch program); sixth, stiffer penalties for 
the manufacturing, distribution, and possession of 
methamphetamine; and, seventh, greater Federal regulatory 
authority, including licensing and inspection at the 
distributor level, especially secondary wholesalers.
    Mr. Chairman, this concludes my statement, and thank you 
for allowing me to participate in this important hearing.
    [The prepared statement of Mr. Heerens follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.068
    
    [GRAPHIC] [TIFF OMITTED] T0084.069
    
    [GRAPHIC] [TIFF OMITTED] T0084.070
    
    [GRAPHIC] [TIFF OMITTED] T0084.071
    
    Mr. Souder. Thank you very much.
    Our next witness is Dr. Linda Suydam, president of the 
Consumer Healthcare Products Association. Thank you for coming 
today.
    Ms. Suydam. Thank you. Chairman Souder and Ranking Member 
Cummings, thank you for the opportunity to testify before the 
subcommittee today.
    I am Linda Suydam. I am president of the Consumer 
Healthcare Products Association, a 123-year-old trade 
association representing the manufacturers of over-the-counter 
medicines and nutritional supplements.
    Methamphetamine is a serious problem that plagues entire 
communities. And as we have heard in earlier testimony today, 
pseudoephedrine is a necessary ingredient in its manufacture.
    CHPA is deeply concerned that safe and effective medicines 
that are purchased by millions of consumers each year to treat 
symptoms of colds, allergies, asthma, and the flu are being 
diverted to manufacture meth in small clandestine labs. We are 
committed to the need for strong action to prevent the 
diversion of these important medicines to the illegal 
manufacture of methamphetamine.
    According to the DEA, these small clandestine labs account 
for about 20 percent of the meth supply in this country. Yet, 
that small number causes significant problems for communities. 
We believe, however, that the only way to significantly address 
the meth production and abuse is through a multifaceted 
approach that empowers communities to deal with all aspects of 
the problem.
    We encourage tough comprehensive measures to attack the 
meth problem at every level of its manufacture and abuse, 
including limiting the number of packages a consumer can 
purchase at one time; enacting severe penalties for those 
manufacturing and selling meth, especially those endangering 
children; strengthening law enforcement resources and providing 
them with the tools to take action against the major 
traffickers who fuel the meth supply and, as well, the meth 
cooks who threaten the safety of communities; and we need more 
programs focusing on prevention and education like Meth Watch.
    Mr. Chairman, we know you support Meth Watch, and we 
applaud the introduction of your bill, which would authorize 
Federal funding for this effective program. Implementation of 
Meth Watch has resulted in a dramatic reduction in theft of 
products used to make meth. It is now established in nine 
States, and more are on the way.
    Comprehensive efforts are working in other States facing 
this epidemic. According to EPIC data, meth lab busts have 
decreased since 2001 in Washington, Oregon, and Kansas, all of 
which have Meth Watch programs in place. And California has 
seen a dramatic reduction in labs due to an aggressive system 
of tracking and monitoring of meth precursors, mandatory 
registration of wholesalers and distributors, retail sales 
restrictions, and aggressive law enforcement and prosecution. 
These proven approaches should be adopted by all 50 States.
    At the Federal level, we need to put more resources into 
stopping the demand for methamphetamine and stopping meth from 
coming into this country. The ONDCP recently issued a plan to 
address meth. CHPA applauds the administration for the 
development of that plan, and we agree with many of its 
recommendations.
    All of these efforts are encouraging and will help reduce 
the meth problem in our communities. It is imperative that we 
work together toward achieving the same goal. Some, however, 
are now calling for a different approach. They propose to make 
pseudoephedrine a Schedule V drug. At first glance, putting 
these medications behind the counter might sound sensible, but 
before we embrace a single-step approach that ignores the 
totality of this abuse problem, and restricts access for 
consumers who need these medicines, we need to make sure that 
it is truly an effective solution. We believe it is not.
    Like everyone who has testified here today, I believe that 
any decrease in meth lab busts is commendable. The OBN lab 
numbers are important if they continue to go down, but the 
Oklahoma law has only been in effect for a few months, and 
there are conflicting statistics that indicate it is too early 
to draw sweeping conclusions. Compared with the concrete data 
that indicates significant lab reductions in Kansas, 
Washington, Oregon, and California, it begs the question on the 
effectiveness of the Oklahoma approach and the long-term 
effectiveness on reducing meth use in general.
    Over-the-counter medicines remain important to our 
healthcare system. A recent study by Northwestern University 
concluded that OTC cough and cold medicines saves the U.S. 
economy and our healthcare system almost $5 billion a year. 
Furthermore, OTC medicines serve a critical public health need, 
a fact that will likely be drawn into sharp focus given the flu 
vaccine shortage this year.
    In conclusion, Mr. Chairman, as great as it might sound, 
there is no quick fix to this complex problem. We must take a 
comprehensive approach that works, not half measures that have 
a greater impact on sick kids, caregivers, and flu sufferers 
than on criminals. We must all work together with all the 
resources that are available to us. We look forward to working 
with you and continuing our efforts to fight methamphetamine at 
every level. Thank you.
    [The prepared statement of Ms. Suydam follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.072
    
    [GRAPHIC] [TIFF OMITTED] T0084.073
    
    [GRAPHIC] [TIFF OMITTED] T0084.074
    
    [GRAPHIC] [TIFF OMITTED] T0084.075
    
    Mr. Souder. Thank you very much.
    Our cleanup witness, so to speak, would be Ms. Mary Ann 
Wagner, vice president of the Pharmacy Regulatory Affairs, 
National Association of Chain Drug Stores.
    Ms. Wagner. Good morning, Chairman Souder and Ranking 
Member Cummings. My name is Mary Ann Wagner, and I am Vice 
President of Pharmacy Regulatory Affairs at NACDS. I am a 
pharmacist licensed in the State of Indiana. I think I am the 
third Hoosier up here on the panel. I served as a member of the 
Indiana Board of Pharmacy from 1988 to 1996.
    NACDS commends Chairman Souder for his leadership in 
addressing the methamphetamine problem. We appreciate the 
opportunity to testify today before this committee as you 
examine ways the Federal Government can assist law enforcement 
in the fight against methamphetamine.
    Our membership consists of more than 200 chain community 
pharmacy companies operating over 33,000 pharmacies. 
Collectively, chain pharmacy comprises the largest component of 
pharmacy practice, with over 100,000 pharmacists. Our 
pharmacies fill over 70 percent of the 3 billion prescriptions 
dispensed annually in the United States.
    Our membership is deeply concerned about the problems of 
methamphetamine production and abuse. We have ongoing calls and 
meetings to discuss this issue and to develop solutions to this 
devastating problem in our country. The majority of our members 
have taken voluntary proactive steps that go beyond what is 
required by their State laws to reduce the theft and 
illegitimate use of pseudoephedrine products. Among other 
things, they have initiated voluntary sales limits of these 
products, participate in voluntary education and theft 
deterrent programs like Meth Watch, train their employees on 
methamphetamine abuse, and work with law enforcement by 
reporting suspicious activity in their stores.
    We want to continue to work with DEA and law enforcement to 
reduce the illicit meth production in the United States, but we 
also want to balance those efforts with our ability to provide 
access to OTC products for legitimate consumers and to optimize 
the skills of pharmacists and the pharmacy staff that our 
members employ.
    The new Oklahoma law is not only operationally difficult 
for our members to comply with, but we also have some very 
serious concerns as to why the law appears to be reducing the 
clandestine labs in the State, when in fact the same results 
could be accomplished without the extreme measures that were 
taken in Oklahoma. Since other States are now looking to 
Oklahoma and Schedule V as the model, we appreciate the 
opportunity to State our reasons why we question the 
effectiveness of the Oklahoma law and oppose making 
pseudoephedrine a Schedule V controlled substance.
    First, we have found no reliable statistics or data to 
support the statements that the law has been successful or is 
the optimal approach. For this reason, we are pursuing 
independent verification of the anecdotal statistics that 
appear to point to a reduction in methamphetamine labs.
    Second, under the law in Oklahoma, those who have been 
arrested for methamphetamine-related crimes must appear before 
a magistrate, judge, or court, who are likely to deny bond. Had 
this law been in effect a year ago, the addict who killed the 
State trooper there would have been behind bars, rather than 
back on the streets to commit a senseless killing.
    Third, we are concerned about the effect that classifying 
pseudoephedrine as a Schedule V controlled substance would have 
on the practice of pharmacy and the services that we provide. 
Requiring pharmacists to perform the duties of a sales clerk 
would not be an efficient use of their time, training, or 
knowledge. Time spent tracking cold medicine sales is time not 
spent practicing pharmacy.
    We believe that any benefits achieved under the Oklahoma 
law could be replicated in other States without the unnecessary 
burdens of Schedule V requirements. Registration of non-
pharmacy retailers who sell pseudoephedrine products would 
drastically reduce the caseloads of product being sold at the 
back doors of rogue convenient stores and gas stations.
    Raising barriers for consumers to access pseudoephedrine 
products is a short-term solution to a long-term problem. The 
methamphetamine problem in this country goes beyond toxic lab 
investigation and cleanup. And we don't mean to minimize the 
seriousness of the problems these labs pose for law enforcement 
and the communities affected; however, we must also pursue 
long-term solutions to the methamphetamine problem that reduce 
the demand for illicit substances.
    So, in conclusion, if the Federal Government is serious 
about reducing the methamphetamine problem, we would recommend 
a number of opportunities be explored, some of which are: stiff 
penalties for those arrested or convicted of methamphetamine-
related offenses; encouraging States to register non-pharmacy 
retailers that sell pseudoephedrine products; significantly 
increasing funding for methamphetamine abuse, prevention, and 
treatment programs; working with the State Department and 
officials in chemical-producing countries to more closely track 
every sale of pseudoephedrine into the United States; providing 
incentives for drug companies to develop an effective 
decongestant that cannot be converted into methamphetamine; 
providing more funding and resources to DEA for enforcement 
activities and to local law enforcement for lab cleanup.
    Mr. Chairman, this concludes my testimony. We thank you for 
the opportunity to participate in this hearing, and we look 
forward to working with all present today to find effective 
solutions to the methamphetamine problem. We look forward to 
sharing with you the research and data that we are pursuing in 
the hope of providing further evidence to help us develop 
meaningful solutions for addressing these problems.
    [The prepared statement of Ms. Wagner follows:]

    [GRAPHIC] [TIFF OMITTED] T0084.076
    
    [GRAPHIC] [TIFF OMITTED] T0084.077
    
    [GRAPHIC] [TIFF OMITTED] T0084.078
    
    [GRAPHIC] [TIFF OMITTED] T0084.079
    
    [GRAPHIC] [TIFF OMITTED] T0084.080
    
    [GRAPHIC] [TIFF OMITTED] T0084.081
    
    [GRAPHIC] [TIFF OMITTED] T0084.082
    
    [GRAPHIC] [TIFF OMITTED] T0084.083
    
    [GRAPHIC] [TIFF OMITTED] T0084.084
    
    Mr. Souder. First, I want to thank everybody for their 
testimony, and since this is narcotics enforcement, and 
arguably one of the hottest debates that is occurring at the 
State and Federal level, it is really helpful to have all of 
you on the same panel. Too often we have disconnects; we hear 
something on one side and hear something on the other side, and 
you go to one place and go that sounds really good, and you go 
somewhere else and that sounds really good. This gives us a 
chance for a little extended discussion.
    I have some other questions beyond this for this panel, but 
let me plunge right into this.
    Mr. Wright, clearly, you heard these discussions in 
Oklahoma as you went through the law. There were a whole range 
of concerns, from pharmacy hours and the impact on the grocery 
store to pharmacists being professionals. Let me just stick 
with those for a start here.
    Did you look at treating this more like cigarettes, where 
it would be behind the counter, but not have to be a pharmacy, 
and somebody might have to show a license and be limited in the 
quantity they buy, as opposed to treating it as a Schedule V 
and putting it in a pharmacy?
    Mr. Wright. Yes, sir, that was discussed, but not seriously 
considered. We already have an industry and an institution in 
Oklahoma, that is the pharmacy, where we regulate drugs. All 
drugs and pharmacies are regulated by government because of 
some sort of need. We thought that pseudoephedrine belonged in 
a pharmacy.
    Mr. Souder. Did you hear, when you were developing the law, 
the concerns from the grocery stores and from the pharmacists, 
as well as the pharmaceutical companies?
    Mr. Wright. No, sir, we didn't hear so much from the 
retailers in Oklahoma. Initially they were a little bit 
concerned, but we had a number of instances where independent 
convenient store operators were making as much as $70,000 in a 
6-month period, when they made $5,000 selling Coca Cola 
products. Some of those stores are clearly making an awful lot 
of money selling pseudoephedrine to methamphetamine addicts. We 
don't regulate those people, and it appeared to us to be very 
difficult to do that.
    Mr. Souder. Mr. Heerens, compared to a small one-person 
convenient store or grocery store, your firm would be huge; 
compared to some other supermarket chains, you are small. In 
looking at the challenge here, we heard from a representative 
at the hearing in Hawaii that was very concerned because there 
they have lots of small towns and, by definition, every 
pharmacy and grocery store is small; they don't even have 
scanners.
    At the same time, in Indiana, one of the problems we see 
with pseudoephedrine and ephedrine precursors, we have even 
seen at least one case in my district of somebody getting a 
pharmacy license predominantly to be able to deal with biker 
gangs; and that much of like what we see and just heard about 
Oklahoma is coming from a lot of wherever they see a 
vulnerability, they will go and hit that store.
    How do you respond, specifically, to what Mr. Wright said, 
that in fact it is undeniable that there are certain places 
where they are loading up?
    Mr. Heerens. No, there is no question it is a serious 
problem, and Indiana does have a problem like many States. We 
had, this summer, in July 2004, the creation of the Meth Abuse 
Task Force, which is making recommendations to the Indiana 
General Assembly, many of the recommendations that have been 
discussed at this table today. But I think, as you have heard, 
I know I was encouraged to hear what Sheriff Bundy had to say 
because he said that the retail community in his State was very 
cooperative.
    As we have become familiar, especially over the last year, 
of a serious problem in Indiana, our community, the retail 
community is stepping up and trying to be a part of the 
solution, and one of the things we have been talking about an 
organization in Indiana called the Indiana Retail Council, 
which is a trade organization for retailers--we talked about 
this actually last month, as well as earlier this week--is what 
can we do to try to have a positive impact; and you have heard 
some of the things that we have outlined: elimination of the 
blister pack, limiting the amount of products to six grams, 
maybe stronger sentencing. Those are some of the things that we 
think will make a difference here, constructive, positive 
steps, but not drastic steps that may not be warranted.
    But in terms of rural areas, in terms of specific pockets 
of problems, I am not sure. In the State of Indiana, as you 
know, it is mostly an agricultural State with few large cities. 
In terms of dealing with pockets or I think you talked about a 
license in the biker gangs, I am not sure what the solution to 
that is except enforcement of the law once that becomes known 
and putting those kind of people out of business. And then in 
Indiana one of the things that I think is coming is, again, a 
limitation on the amount that you can buy, two or three 
products per transaction, as well as elimination of the blister 
pack and some other things.
    Mr. Souder. I think you also have in your recommendations 
with wholesalers?
    Mr. Heerens. Yes.
    Mr. Souder. How do you see that? Rather than ask you that 
question, Mr. Wright, do you believe this problem could be 
addressed by wholesalers looking at unusual quantities going 
out of proportion, like the person that said they were selling 
more than Coca Cola? How much of an auditing problem is that?
    Mr. Wright. That is a tremendous problem for us when it is 
widespread, and it apparently is. And also I might add that I 
don't think three-pack-per limits work. We have that self-
imposed by Walmart in Oklahoma. We have videotape after 
videotape where people get out of a car, four or five of them, 
they all go buy three packs, they go back to the car, they go 
buy three more packs, they come back, they go to some other 
Walmart, they are doing the same thing. We really work just 
trying to keep pseudoephedrine out of the manufacturers' hands, 
and we don't think that is a viable solution.
    Mr. Souder. Can they do that through a Schedule V drug by 
going to different pharmacies?
    Mr. Wright. Right now they can, but when we implement our 
Statewide computer system that will authorize those threshold 
limits, they won't be able to do that. And as we speak, 
pharmacies in small communities particularly are networking 
with each other and showing their log books to law enforcement 
or comparing names to see who is presently trying to purchase 
more than the nine gram limits, so we are making some arrests 
already.
    Mr. Souder. Have you seen anything move to internet?
    Mr. Wright. No, I have not.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I am so glad that we had both. I agree with 
the chairman. I was feeling pretty good about you for a while 
there, Mr. Wright. Then these folks came along and it just was 
a clash, because I can see both sides of the issue. So when I 
look at Mr. Heerens' recommendations, I was trying to figure 
out what can we do to try to, at the same time, maintain the 
convenience for customers for you, Ms. Wagner and you, Ms. 
Suydam, but at the same time deal with the problem.
    And as I was listening to all of you, I can understand why 
you all may have had the success that you had in getting this 
passed, and not so much opposition. Part of it is what Mr. 
Heerens said, that is, that they are figuring out what happened 
and they see the effect.
    The other part of it is that probably the problem was so 
overwhelming in your jurisdiction that people said, well, we 
don't care about the convenience, we would rather deal with the 
problem. I am just guessing. But now we are at a point where, 
in some kind of way, we are trying to find a solution to this 
problem. We usually don't have this kind of exchange, so I have 
to take advantage of it.
    You have heard the arguments here. What is your response to 
that? You understand what they are saying.
    Mr. Wright. Yes, sir.
    Mr. Cummings. And it is reasonable. Do you agree?
    Mr. Wright. I don't think that it is.
    Mr. Cummings. You don't think it is reasonable?
    Mr. Wright. No, sir.
    Mr. Cummings. OK, why don't you go ahead?
    Mr. Wright. I have been a policeman for 25 years. I go back 
into those phenylacetic acid laboratories. I have seen the 
carnage associated with the abuse of methamphetamine, and you 
clearly understand it. What we are really weighing here is 
treating the sniffles versus solving this problem, in my 
opinion. As a police officer, personally speaking, I would 
rather solve the problem at minor inconvenience to people with 
nasal congestion. I think it is a very good trade. The people 
of Oklahoma seem to think so.
    Mr. Cummings. Sheriff Bundy, the Meth Watch program, as I 
listened to you, I just tried to think like these manufacturers 
think. First of all, they understand that it is truly a thin 
blue line. And if a person is a manufacturer knowing there is a 
thin blue line, and it is even thinner in rural areas, it seems 
as if they would say to themselves, well, this is a situation 
where we probably have more of an opportunity to get away with 
it. I am not saying that is true, but that is what they may 
conclude.
    Mr. Bundy. It is true. That fact is just really enhanced by 
the truth that we don't have 24-hour police patrol; we are 
abutted by more urban areas. Rural counties are attractive to 
these individuals for all those very reasons, and the honest 
answer is, yes, more often than not they are able to come to 
rural areas of America and get away with it.
    Mr. Cummings. And then when I hear you go into a small lab 
for 9 hours, the overwhelming nature of that on a small police 
force has to be just absolutely devastating. We are all 
reasonable people, and I am just trying to figure you all 
listened to Mr. Heerens--I don't know why I can't pronounce 
your name.
    Mr. Heerens. Nobody can.
    Mr. Cummings. Oh, OK, good. I feel better now.
    You heard his suggestions and you heard Ms. Wagner and Dr. 
Suydam, and I understand what you said, Officer Wright, and I 
respect that. I support police officers. I really do, because I 
know how important your job is. So how do we now, with all of 
this, come up with--I mean, you heard the suggestions.
    I mean, what is reasonable? What do you all suggest we do, 
hearing everything that you have heard, I mean from my police 
side? Because these arguments are going to be made, I can tell 
you; I can hear them. They were, by the way, extremely well 
done, both sides extremely well done. We have two major 
problems, and I guess it all depends on who is observing.
    One may feel like one problem is worse than the other and 
far outweighs the other, so we have a certain solution; then 
there is the other side. So where is the middle? What do you 
see that we could do to try to meet all of your hopes and 
dreams that we deal with this problem, but at the same time not 
inconvenience folks to the degree that it might be 
unreasonable?
    I know where you stand, Mr. Wright.
    Sheriff.
    Mr. Bundy. I believe there are a lot of pieces that have to 
come together, and I think there can be some very productive 
partnerships formed from law enforcement, from retailers, to 
communities. I think everybody is coming to a greater 
appreciation of the scope of this problem, and we recognize it 
as being a true problem.
    And the Oklahoma approach is working for Oklahoma; it may 
work other places. Something of a smaller scale may work other 
places. I don't know the answer any better than you do, I 
guess, or anyone here at the panel, but it is my belief and my 
experience after all these years, and just the countless cases, 
there is going to have to be a partnership that involves the 
community and law enforcement and retailers that all play a big 
role in this comes together to formulate a workable solution 
that we can all be happy with.
    Mr. Souder. Just for the record, I come from a small town 
of 700, but it is in a big county. The smallest county I 
represent is about 40,000 people. You said your county had 
10,000 in it total?
    Mr. Bundy. Yes, sir.
    Mr. Souder. Is it a somewhat unique situation in a sense? 
Do you have much mobility in and out of the county? I mean, do 
you pretty much know everybody in the county?
    Mr. Bundy. Yes.
    Mr. Souder. So it becomes a little bit easier challenge to 
work with a grocery store or a pharmacy where you know 
everybody. Is that fair to say?
    Mr. Bundy. That is the tremendous strength in programs such 
as Meth Watch, yes. A long time ago I remember, early in my 
career, a sheriff from Wichita, which is our urban area in 
Kansas, talking about how the best way to really solve problems 
starts just like that, it is a neighbor-to-neighbor thing and 
then it is a block-to-block thing, and then it goes from 
community-to-community to encompass the county was the story he 
related.
    And that is very much how it does work and that is my 
experience, that I have to sell the neighborhoods on it, then 
they sell the blocks, and then the blocks the communities, the 
communities the counties, and the counties the States, and 
right up the chain to where we really come up with some 
tremendous solutions. But that is the grassroots approach I 
take with problems. In this instance it has proven to be really 
effective in trying to manage our methamphetamine problem.
    Mr. Cummings. You know, Mr. Chairman, I am a lawyer, and 
before I came here I practiced for about 19 years in a small 
practice, but the way most people got caught in criminal 
situations is somebody told on them, or else they told on 
themselves. And I was just thinking we have to maximize that 
cooperation. I guess the Meth Watch program aims at doing that. 
And I was thinking about the drug-free communities piece. Maybe 
we need to look at that and see.
    I just have to go back and look at it, whether there are 
things that we can do to enhance that to help some of this 
prevention and addressing these community needs, because we 
have to, sheriff, going back to what you just said, we almost 
have to try to do everything in our power to do this almost by 
community by community. And perhaps having the drug stores and 
others who may sell these products help us in any way that they 
can to try to address this problem.
    You know, Martin Luther King, Jr. said you cannot lead 
where you do not go, and you cannot teach what you don't know. 
That is why I appreciate what the law enforcement side said so 
much, because I know that when you see the carnage, when you 
see the jails filled, it is like this is what you have to deal 
with everyday. And I guess after you have seen it, Sheriff 
Bundy, for 20 years plus, and then you see generation after 
generation, you say, well, I've got to do--and I don't want you 
to give up.
    And I am just imaging somebody sitting right now, watching 
this on C-SPAN and saying, OK, let us go and do this, because 
there is this thin blue line. So I just think we have to figure 
out a way. We in the Congress have to just try to figure out 
how we can empower communities more and at the same time try to 
bring folks together, both the retailers and others who may 
have a problem with some of these solutions, and you all so 
that we can lift our whole communities up, because we can't 
just sit here. I am not saying that we are not doing things, 
because we have already heard the testimony, but I just can't 
believe that we can't do more. So I just don't believe it.
    So anybody may want to comment, and then I will be 
finished.
    Ms. Wagner. You are absolutely right, we need to do more. 
Two of the suggestions that we made I think are something that 
could be done quite easily and would make a difference. One is 
limiting or eliminating the blister pack rule as it stands 
today, and starting sales limits within retail stores. But even 
more than that, limiting the number of stores that carry the 
products. Right now all pharmacies are licensed by their State 
board of pharmacy. They know who those pharmacies are, they go 
out, they regularly inspect them. When it comes to selling this 
particular product, we find it in convenience stores, in gas 
stations, and that is where some of the real problems are 
happening.
    We don't necessarily believe in limiting stores that can 
carry it, but at least if they are not licensed by the board of 
pharmacy, let them register so that some entity in the State 
knows who is selling it and can go and inspect those premises, 
look at their invoices, look at their records. Right now there 
is no one body overseeing the non-pharmacy retailers, and that 
is something that could be done quite easily, quite quickly, 
and it would at least give us more knowledge of where these 
problems are occurring.
    Mr. Cummings. Does that hurt you, Mr. Heerens?
    Mr. Heerens. I don't believe it does. I happen to think 
that is probably a good idea.
    Mr. Cummings. So that still would allow Marsh to--you said 
a large percentage of your stores don't have a pharmacy.
    Mr. Heerens. Right.
    Mr. Cummings. So products that would fall under that 
category, in your suggestion, they would have to still register 
because they don't have a pharmacy. And the ones that have a 
pharmacy, they are already regulated.
    Ms. Wagner. Given the opportunity to register. But I would 
imagine that the rogue operators aren't going to do that. They 
do not want regulators knowing who they are and that they are 
selling caseloads out the back door. So this would legitimize 
those retailers who carry the product. They could still have it 
available for legitimate customers, but at least an entity in 
the State would know who and where these people are that are 
selling it.
    Mr. Cummings. Well, I just want to again thank all of you 
for what you are doing. This is a major problem. It is one of 
the reasons why I agreed to do this subcommittee, because I see 
the pain of drugs everyday. We don't have the methamphetamine 
problem in Baltimore too much, where I am from, but no matter 
what the drug is, it is just so painful to see how people are 
destroyed. So we are going to do the best we can. We want to 
work with you.
    Mr. Chairman, I hope that we can revisit, a year from now, 
Oklahoma's situation. And one of the things, too, that I saw as 
a problem, and you alluded to it, Sheriff Bundy, is that when 
you have an Oklahoma law, then does that force people into the 
next State or surrounding States?
    Therefore, what would happen is you would almost have to 
have a national law, because then people just move from State 
to State to State, and then possibly an adjoining State gets a 
bigger problem. I don't know, I am not sure about the answers 
to that, but I know that in almost everything else, just like 
most States, when they look at something like cigarette tax and 
things of that nature, they worry about those things because 
they force people into another State.
    So I think those are the things that we have to consider. 
And the fact is that there is a role for the Federal Government 
to play. We want to play our role, but we also want to be 
supportive of our States and our locals. So we will give it the 
best we can, and we just thank you all very much.
    Mr. Souder. Thank you.
    Dr. Suydam, do you agree with eliminating the blister pack? 
Food Marketing said they did, the Association of Chain Drug 
Stores. What is your association position?
    Dr. Suydam. Yes, we agree with that as well. In fact, I 
agree with all of the points that Ms. Wagner made and Mr. 
Heerens. We believe that registration will be an important 
factor in limiting sales to the legitimate groceries and to the 
legitimate pharmacies, and will get rid of these rogue places 
where the product is going out the back door.
    But, you know, one other thing we haven't mentioned, Mr. 
Chairman, and I know this is a law enforcement hearing, but I 
do think we have to focus on prevention as well. And I think we 
have done some work with the Partnership for Drug-Free America 
that looks at how do you raise awareness about the problem of 
methamphetamine addiction and, in fact how you can raise 
awareness with parents and with pediatricians and children, to 
get people to stop using this, because we have heard from all 
the law enforcement people how addictive this drug is and how 
you cannot, in many cases, be treated because there is not an 
effective treatment.
    So we think a major effort needs to be in the prevention 
area as well. But we also agree that we need to enforce the 
law; we need to strengthen our laws, and we need to make the 
other retail restrictions that we have talked about and 
registration.
    Mr. Souder. I want to comment just briefly on what you 
said, because probably 60 percent, at least, of our work is 
with narcotics, so we have lots of different things, even 
segment further the meth in future hearings. But I want to 
touch briefly on the prevention side. I talked to Director 
Walters just last Friday about this very subject, about using 
some of the ad campaign on meth, but here is our fundamental 
problem: there is no meth addict who didn't start with 
marijuana, period. We have had multiple testimony around the 
country about poly drug use and other things. But if we don't 
get hold of the marijuana problem, we don't tackle the meth 
problem. And everybody likes to talk about meth, but they don't 
want to talk about marijuana.
    The fact is that our National Ad Campaign, combined with 
other efforts, have reduced marijuana use in the United States 
the last 2 years in a row. So guess what Congress is about to 
do in its infinite wisdom, and to my great frustration? And the 
problem is the ``other body'' as we say here. They are reducing 
the National Ad Campaign. We have consistently reduced it now 
for 3 straight years. Ranking Member Cummings and myself, along 
with Speaker Hastert, have worked, and Chairman Istook has held 
a higher number in the House, but we are battling to keep that 
program alive.
    The Partnership for Drug-Free America does a great job, but 
without some of this National Ad Campaign funding, if we 
further divide a limited amount of dollars in basic 
advertising, which you all know in your industries, if you go 
below a certain threshold, you might as well not do the 
program, because there is not enough repetitions and enough 
penetration of the market. So if we segment this by drugs, we 
will lose the momentum we have in one and not get the other one 
started. And I am exasperated, and I hope the Speaker succeeds 
here in the next 48 hours of getting this dollar amount back 
up, or we are in big trouble in our No. 1 prevention program.
    Our second big prevention program, Safe and Drug-Free 
Schools, has been so watered down in so many districts. They 
use it for any after-school program because maybe it will make 
the kids think that they are not going to get involved, and it 
was supposed to be an anti-drug program.
    So when we actually talk about prevention programs in the 
United States, we don't have many. Partnership for Drug-Free 
America is a great program, the community drug coalitions are, 
but we have reduced the thrust of what we have been doing at 
this, in spite of this committee's efforts to highlight it.
    Now, I have a couple of other specific questions. I 
wondered, Mr. Wright, what was your reaction to the licensing 
of a lot of these smaller operations? Would they go out if they 
were monitored more closely, and would that give us another way 
to handle it?
    Mr. Wright. I don't really know the answer to that. What we 
looked at is we already have a body where we keep drugs that 
need to be protected, and that is the pharmacy. It might be 
worth exploring.
    Mr. Souder. So you basically knocked out convenience stores 
and anybody else from being able to sell the type of products 
you described if they didn't have a pharmacy.
    Mr. Wright. Yes. That still left liquid gel caps and liquid 
preparations in the convenience stores. Those are products that 
we don't see in methamphetamine laboratories.
    Mr. Souder. This is a huge question, and we are talking 
about meth today, but we had a hearing in Orlando on OxyContin 
and oxycodones; similar argument, similar debate. As DEA 
consistently reports, the No. 1 cause of drug deaths in the 
United States is legal drugs, and that there is continuing 
pressure to try to figure out how to get hold of this. We have 
this rash of OxyContin. We picked up the main guy or group in 
my area on OxyContin. In Orlando it went through one high 
school and killed 10 kids, just like that. How do you balance 
that with pain relief? These are huge questions, not just in 
the meth precursors.
    I want to make sure I get on the record here, Lieuenant 
Colby, because we got mostly on this subject, but this hearing 
is also dealing with a broader range. Byrne Grants are proposed 
to be cut, and I don't believe at the end of the day they will 
be cut. Could you describe what would happen if Byrne Grants 
were cut, as it relates to you? And I would be interested in 
hearing the other law enforcement say that too.
    Lieutenant Colby. Certainly. As I said in my statement, we 
have 34 drug task force grants in the State of Indiana that are 
multi-jurisdictional. This is one of the requirements through 
the Indiana Criminal Justice Institute that sends out the Byrne 
moneys. One of the problems is one-third of the narcotics 
officers in the State of Indiana will be unemployed if the 
Byrne Grants go away.
    I am personally from a large county of Allen County. We 
have 350,000 people in our county. My unit is seven people. It 
is our responsibility. Plus, I picked up Huntington County, 
Huntington City, and two other counties that work with us on 
knocking off meth labs and so on. We don't get involved in 
their meth labs as much as they take care of that and we try to 
help them take care of their cocaine and crack head problem. So 
it is kind of a tit-for-tat thing. Their funds are getting 
eaten up because of it. I try to help them out, out of the drug 
task force funds.
    So the Byrne Grants are doing a multi thing in everybody's 
area, and the Indiana Drug Enforcement Officers Association is 
saying one of the problems we have with meth is, as officers, 
as all of you know, law enforcement officers really don't see a 
lot of gray, it is black or white, and you either go to jail or 
you don't. And I think that is one of the stances that Oklahoma 
took. It is not a patch, it is a fix, and they are getting 
results; and it is not tomorrow or a year from now, it is 
today. And I think that is one of the big problems that you are 
going to see with the battle that you people have, 
unfortunately, and I don't have to mess with that.
    Mr. Souder. Mr. Wright, could you describe what would 
happen if Byrne Grants would go away or get dramatically 
reduced?
    Mr. Wright. Byrne Grants are essential to Oklahoma. More 
than half of the narcotics agents in our State are funded by 
Byrne funds. They operate 27 independent drug task forces, 
particularly in rural areas. That has been the single group 
that has fought this methamphetamine epidemic for the last 
decade. Those guys do more meth labs in Oklahoma than anyone 
else, and we are going to be in real trouble if we lose Byrne 
funding. We lobby for that hard every year.
    It also funds a wire intercept project that we have at my 
agency. We don't just work meth labs, we work Mexican drug 
cartel cell groups that are operative in Oklahoma, and we do 
wire tap after wire tap after wire tap on those organizations, 
and all of those cases lead back to Mexico. That is also Byrne 
funded. We very much appreciate Byrne funding.
    Mr. Souder. One of the things that is happening that we 
have to watch is that the High Intensity Drug Trafficking 
Areas, the HIDTAs, had a very specific goal. That goal was to 
work in high-intensity drug trafficking areas to keep the drugs 
from getting to other areas.
    And as Congressmen figured out and Senators figured out 
that they could get HIDTAs in their home area, the HIDTAs 
became in some areas like the drug task forces. And as the 
HIDTAs proliferate, the support for Byrne Grants has declined 
because HIDTAs became the new trend.
    And even though some of their functions are the same and 
some of them aren't, what is going to happen is if we reduce 
the Byrne Grants, we are going to see a demand for HIDTAs 
everywhere. HIDTAs, in effect, will merely become a 
reconfiguration of the drug task forces, which is starting to 
happen in some areas already in the country.
    And the whole point of border control high intensity 
distribution networks will be undermined and will have 
undermined the existing drug task force structure, trying to 
reinvent another one because we have a new hot name. And it is 
has been interesting because we haven't really looked at that 
interrelationship between where the Byrne Grant money is going 
and where the HIDTA money is going.
    Oklahoma is kind of interesting because don't you have a 
new HIDTA?
    Mr. Wright. Yes, sir. We are an extension of the North 
Texas HIDTA out of Dallas.
    Mr. Souder. Which is a relatively low-funded HIDTA, so you 
don't have as much pressure.
    Mr. Wright. A very low-funded HIDTA.
    Mr. Souder. But it is that type of trend, that as that 
expands, there will be more attention on that money and trying 
to get that money, and we just move it from one to another and 
don't get a net in a reconfiguration. So I wanted to make sure 
we got onto the record here about the Byrne Grants. And we are 
similarly looking at RISS versus EPIC, and so on.
    Did you have something, Sheriff Bundy?
    Mr. Bundy. Just real quickly about the Byrne Grants. I just 
met with the director of the Kansas Bureau of Investigation 
last week, and the trend has become that it is the only way 
that KBI exists, and 46 percent of that budget is from Federal 
funding now. And in a State like ours that is so rural, where 
75 percent are representative of me, we don't have narcotics 
offices or detectives, we rely on the State agency, being the 
KBI, for that type of support for the entire State.
    So the elimination of Byrne Grants wouldn't so much impact 
narcotics investigations or specialized services, but the most 
basic type of services to the citizens of our State would be 
impacted that day the Byrne Grants are lessened. It plays a 
huge role in rural States, and I would hate for you not to know 
of that.
    Mr. Souder. Well, I thank you all for your testimony today, 
for your participation. We and many other Members of Congress 
and the Speaker's drug task force are trying to put together a 
package here. We are trying to work with everybody involved as 
to how we do this at the national level. We all know that 
Internet and international sales complicate all these 
questions, so we don't just move it to another place.
    We want to work with the industry, we want to work with law 
enforcement to make sure that we can try to keep the meth 
problem from expanding. While we are focused on this for this 
particular task, we are working with the industry as well on 
the other over-the-counter legal drugs that are used and abused 
by individuals, both for distribution and leading to the death 
and destruction of many families and individuals around the 
country.
    So, once again, thank you again. If there any additional 
materials you want to submit, please do so. We will probably 
give you some additional followup questions both for the 
record, but as we develop the package together, I am sure that 
the Narcotics Officers Association, which is a key part of the 
support for this committee and represents the people on the 
front lines, as well as trying to balance that with fairness 
for the people who need legal drugs to relieve their pain and 
suffering in many different ways.
    Thank you all for participating. With that, the 
subcommittee stands adjourned.
    [Whereupon, at 1:06 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0084.085

[GRAPHIC] [TIFF OMITTED] T0084.086

[GRAPHIC] [TIFF OMITTED] T0084.087

[GRAPHIC] [TIFF OMITTED] T0084.088

[GRAPHIC] [TIFF OMITTED] T0084.089

[GRAPHIC] [TIFF OMITTED] T0084.090

[GRAPHIC] [TIFF OMITTED] T0084.091

[GRAPHIC] [TIFF OMITTED] T0084.092

[GRAPHIC] [TIFF OMITTED] T0084.093

[GRAPHIC] [TIFF OMITTED] T0084.094

[GRAPHIC] [TIFF OMITTED] T0084.095

[GRAPHIC] [TIFF OMITTED] T0084.096

[GRAPHIC] [TIFF OMITTED] T0084.097

[GRAPHIC] [TIFF OMITTED] T0084.098

[GRAPHIC] [TIFF OMITTED] T0084.099

[GRAPHIC] [TIFF OMITTED] T0084.100

[GRAPHIC] [TIFF OMITTED] T0084.101

[GRAPHIC] [TIFF OMITTED] T0084.102

[GRAPHIC] [TIFF OMITTED] T0084.103

[GRAPHIC] [TIFF OMITTED] T0084.104

[GRAPHIC] [TIFF OMITTED] T0084.105

[GRAPHIC] [TIFF OMITTED] T0084.106

[GRAPHIC] [TIFF OMITTED] T0084.107

[GRAPHIC] [TIFF OMITTED] T0084.108

[GRAPHIC] [TIFF OMITTED] T0084.109

[GRAPHIC] [TIFF OMITTED] T0084.110

[GRAPHIC] [TIFF OMITTED] T0084.111

[GRAPHIC] [TIFF OMITTED] T0084.112

[GRAPHIC] [TIFF OMITTED] T0084.113

[GRAPHIC] [TIFF OMITTED] T0084.114

[GRAPHIC] [TIFF OMITTED] T0084.115

[GRAPHIC] [TIFF OMITTED] T0084.116

[GRAPHIC] [TIFF OMITTED] T0084.117

[GRAPHIC] [TIFF OMITTED] T0084.118

[GRAPHIC] [TIFF OMITTED] T0084.119

[GRAPHIC] [TIFF OMITTED] T0084.120

[GRAPHIC] [TIFF OMITTED] T0084.121

[GRAPHIC] [TIFF OMITTED] T0084.122

[GRAPHIC] [TIFF OMITTED] T0084.123

[GRAPHIC] [TIFF OMITTED] T0084.124

[GRAPHIC] [TIFF OMITTED] T0084.125

[GRAPHIC] [TIFF OMITTED] T0084.126

[GRAPHIC] [TIFF OMITTED] T0084.127

[GRAPHIC] [TIFF OMITTED] T0084.128

[GRAPHIC] [TIFF OMITTED] T0084.129

[GRAPHIC] [TIFF OMITTED] T0084.130

[GRAPHIC] [TIFF OMITTED] T0084.131

[GRAPHIC] [TIFF OMITTED] T0084.132

[GRAPHIC] [TIFF OMITTED] T0084.133

[GRAPHIC] [TIFF OMITTED] T0084.134

[GRAPHIC] [TIFF OMITTED] T0084.135

[GRAPHIC] [TIFF OMITTED] T0084.136

[GRAPHIC] [TIFF OMITTED] T0084.137

[GRAPHIC] [TIFF OMITTED] T0084.138

[GRAPHIC] [TIFF OMITTED] T0084.139

[GRAPHIC] [TIFF OMITTED] T0084.140

[GRAPHIC] [TIFF OMITTED] T0084.141

[GRAPHIC] [TIFF OMITTED] T0084.142

[GRAPHIC] [TIFF OMITTED] T0084.143

[GRAPHIC] [TIFF OMITTED] T0084.144

[GRAPHIC] [TIFF OMITTED] T0084.145

[GRAPHIC] [TIFF OMITTED] T0084.146

[GRAPHIC] [TIFF OMITTED] T0084.147

[GRAPHIC] [TIFF OMITTED] T0084.148

[GRAPHIC] [TIFF OMITTED] T0084.149

[GRAPHIC] [TIFF OMITTED] T0084.150

[GRAPHIC] [TIFF OMITTED] T0084.151

[GRAPHIC] [TIFF OMITTED] T0084.152

[GRAPHIC] [TIFF OMITTED] T0084.153

[GRAPHIC] [TIFF OMITTED] T0084.154

[GRAPHIC] [TIFF OMITTED] T0084.155

[GRAPHIC] [TIFF OMITTED] T0084.156

[GRAPHIC] [TIFF OMITTED] T0084.157

[GRAPHIC] [TIFF OMITTED] T0084.158

[GRAPHIC] [TIFF OMITTED] T0084.159

[GRAPHIC] [TIFF OMITTED] T0084.160

[GRAPHIC] [TIFF OMITTED] T0084.161

[GRAPHIC] [TIFF OMITTED] T0084.162

[GRAPHIC] [TIFF OMITTED] T0084.163

[GRAPHIC] [TIFF OMITTED] T0084.164

[GRAPHIC] [TIFF OMITTED] T0084.165

[GRAPHIC] [TIFF OMITTED] T0084.166

[GRAPHIC] [TIFF OMITTED] T0084.167

[GRAPHIC] [TIFF OMITTED] T0084.168

[GRAPHIC] [TIFF OMITTED] T0084.169

[GRAPHIC] [TIFF OMITTED] T0084.170

[GRAPHIC] [TIFF OMITTED] T0084.171

[GRAPHIC] [TIFF OMITTED] T0084.172

[GRAPHIC] [TIFF OMITTED] T0084.173

[GRAPHIC] [TIFF OMITTED] T0084.174

[GRAPHIC] [TIFF OMITTED] T0084.175

[GRAPHIC] [TIFF OMITTED] T0084.176

[GRAPHIC] [TIFF OMITTED] T0084.177

[GRAPHIC] [TIFF OMITTED] T0084.178

[GRAPHIC] [TIFF OMITTED] T0084.179

[GRAPHIC] [TIFF OMITTED] T0084.180

[GRAPHIC] [TIFF OMITTED] T0084.181

[GRAPHIC] [TIFF OMITTED] T0084.182

[GRAPHIC] [TIFF OMITTED] T0084.183

[GRAPHIC] [TIFF OMITTED] T0084.184

[GRAPHIC] [TIFF OMITTED] T0084.185

[GRAPHIC] [TIFF OMITTED] T0084.186

[GRAPHIC] [TIFF OMITTED] T0084.187

[GRAPHIC] [TIFF OMITTED] T0084.188

[GRAPHIC] [TIFF OMITTED] T0084.189

[GRAPHIC] [TIFF OMITTED] T0084.190

[GRAPHIC] [TIFF OMITTED] T0084.191

[GRAPHIC] [TIFF OMITTED] T0084.192

[GRAPHIC] [TIFF OMITTED] T0084.193

[GRAPHIC] [TIFF OMITTED] T0084.194

[GRAPHIC] [TIFF OMITTED] T0084.195

[GRAPHIC] [TIFF OMITTED] T0084.196

[GRAPHIC] [TIFF OMITTED] T0084.197

[GRAPHIC] [TIFF OMITTED] T0084.198

[GRAPHIC] [TIFF OMITTED] T0084.199

[GRAPHIC] [TIFF OMITTED] T0084.200

[GRAPHIC] [TIFF OMITTED] T0084.201

[GRAPHIC] [TIFF OMITTED] T0084.202

[GRAPHIC] [TIFF OMITTED] T0084.203

[GRAPHIC] [TIFF OMITTED] T0084.204

[GRAPHIC] [TIFF OMITTED] T0084.205

[GRAPHIC] [TIFF OMITTED] T0084.206

[GRAPHIC] [TIFF OMITTED] T0084.207

[GRAPHIC] [TIFF OMITTED] T0084.208

[GRAPHIC] [TIFF OMITTED] T0084.209

[GRAPHIC] [TIFF OMITTED] T0084.210

[GRAPHIC] [TIFF OMITTED] T0084.211

[GRAPHIC] [TIFF OMITTED] T0084.212

[GRAPHIC] [TIFF OMITTED] T0084.213

[GRAPHIC] [TIFF OMITTED] T0084.214

[GRAPHIC] [TIFF OMITTED] T0084.215

[GRAPHIC] [TIFF OMITTED] T0084.216

[GRAPHIC] [TIFF OMITTED] T0084.217

[GRAPHIC] [TIFF OMITTED] T0084.218

[GRAPHIC] [TIFF OMITTED] T0084.219

[GRAPHIC] [TIFF OMITTED] T0084.220

[GRAPHIC] [TIFF OMITTED] T0084.221

[GRAPHIC] [TIFF OMITTED] T0084.222

[GRAPHIC] [TIFF OMITTED] T0084.223

[GRAPHIC] [TIFF OMITTED] T0084.224

[GRAPHIC] [TIFF OMITTED] T0084.225

[GRAPHIC] [TIFF OMITTED] T0084.226

[GRAPHIC] [TIFF OMITTED] T0084.227

[GRAPHIC] [TIFF OMITTED] T0084.228

[GRAPHIC] [TIFF OMITTED] T0084.229

[GRAPHIC] [TIFF OMITTED] T0084.230

[GRAPHIC] [TIFF OMITTED] T0084.231

[GRAPHIC] [TIFF OMITTED] T0084.232

[GRAPHIC] [TIFF OMITTED] T0084.233

[GRAPHIC] [TIFF OMITTED] T0084.234

[GRAPHIC] [TIFF OMITTED] T0084.235

[GRAPHIC] [TIFF OMITTED] T0084.236

[GRAPHIC] [TIFF OMITTED] T0084.237

[GRAPHIC] [TIFF OMITTED] T0084.238

[GRAPHIC] [TIFF OMITTED] T0084.239

[GRAPHIC] [TIFF OMITTED] T0084.240

[GRAPHIC] [TIFF OMITTED] T0084.241

[GRAPHIC] [TIFF OMITTED] T0084.242

[GRAPHIC] [TIFF OMITTED] T0084.243

[GRAPHIC] [TIFF OMITTED] T0084.244

[GRAPHIC] [TIFF OMITTED] T0084.245

[GRAPHIC] [TIFF OMITTED] T0084.246

[GRAPHIC] [TIFF OMITTED] T0084.247

[GRAPHIC] [TIFF OMITTED] T0084.248

[GRAPHIC] [TIFF OMITTED] T0084.249

[GRAPHIC] [TIFF OMITTED] T0084.250

[GRAPHIC] [TIFF OMITTED] T0084.251

[GRAPHIC] [TIFF OMITTED] T0084.252

[GRAPHIC] [TIFF OMITTED] T0084.253

[GRAPHIC] [TIFF OMITTED] T0084.254

[GRAPHIC] [TIFF OMITTED] T0084.255

[GRAPHIC] [TIFF OMITTED] T0084.256

[GRAPHIC] [TIFF OMITTED] T0084.257

[GRAPHIC] [TIFF OMITTED] T0084.258

[GRAPHIC] [TIFF OMITTED] T0084.259

[GRAPHIC] [TIFF OMITTED] T0084.260

[GRAPHIC] [TIFF OMITTED] T0084.261

[GRAPHIC] [TIFF OMITTED] T0084.262

[GRAPHIC] [TIFF OMITTED] T0084.263

[GRAPHIC] [TIFF OMITTED] T0084.264

[GRAPHIC] [TIFF OMITTED] T0084.265

[GRAPHIC] [TIFF OMITTED] T0084.266

[GRAPHIC] [TIFF OMITTED] T0084.267

[GRAPHIC] [TIFF OMITTED] T0084.268

[GRAPHIC] [TIFF OMITTED] T0084.269

[GRAPHIC] [TIFF OMITTED] T0084.270

[GRAPHIC] [TIFF OMITTED] T0084.271

[GRAPHIC] [TIFF OMITTED] T0084.272

[GRAPHIC] [TIFF OMITTED] T0084.273

[GRAPHIC] [TIFF OMITTED] T0084.274

[GRAPHIC] [TIFF OMITTED] T0084.275

[GRAPHIC] [TIFF OMITTED] T0084.276

[GRAPHIC] [TIFF OMITTED] T0084.277

[GRAPHIC] [TIFF OMITTED] T0084.278

[GRAPHIC] [TIFF OMITTED] T0084.279

[GRAPHIC] [TIFF OMITTED] T0084.280

[GRAPHIC] [TIFF OMITTED] T0084.281

[GRAPHIC] [TIFF OMITTED] T0084.282

[GRAPHIC] [TIFF OMITTED] T0084.283

[GRAPHIC] [TIFF OMITTED] T0084.284

[GRAPHIC] [TIFF OMITTED] T0084.285

[GRAPHIC] [TIFF OMITTED] T0084.286

[GRAPHIC] [TIFF OMITTED] T0084.287

[GRAPHIC] [TIFF OMITTED] T0084.288

[GRAPHIC] [TIFF OMITTED] T0084.289

[GRAPHIC] [TIFF OMITTED] T0084.290

[GRAPHIC] [TIFF OMITTED] T0084.291

[GRAPHIC] [TIFF OMITTED] T0084.292

[GRAPHIC] [TIFF OMITTED] T0084.293

[GRAPHIC] [TIFF OMITTED] T0084.294

[GRAPHIC] [TIFF OMITTED] T0084.295

[GRAPHIC] [TIFF OMITTED] T0084.296

[GRAPHIC] [TIFF OMITTED] T0084.297

[GRAPHIC] [TIFF OMITTED] T0084.298

[GRAPHIC] [TIFF OMITTED] T0084.299

[GRAPHIC] [TIFF OMITTED] T0084.300

[GRAPHIC] [TIFF OMITTED] T0084.301

[GRAPHIC] [TIFF OMITTED] T0084.302

[GRAPHIC] [TIFF OMITTED] T0084.303

[GRAPHIC] [TIFF OMITTED] T0084.304

[GRAPHIC] [TIFF OMITTED] T0084.305

[GRAPHIC] [TIFF OMITTED] T0084.306

[GRAPHIC] [TIFF OMITTED] T0084.307

[GRAPHIC] [TIFF OMITTED] T0084.308

[GRAPHIC] [TIFF OMITTED] T0084.309

[GRAPHIC] [TIFF OMITTED] T0084.310

[GRAPHIC] [TIFF OMITTED] T0084.311

[GRAPHIC] [TIFF OMITTED] T0084.312

[GRAPHIC] [TIFF OMITTED] T0084.313

[GRAPHIC] [TIFF OMITTED] T0084.314

[GRAPHIC] [TIFF OMITTED] T0084.315

[GRAPHIC] [TIFF OMITTED] T0084.316

[GRAPHIC] [TIFF OMITTED] T0084.317

[GRAPHIC] [TIFF OMITTED] T0084.318

[GRAPHIC] [TIFF OMITTED] T0084.319

[GRAPHIC] [TIFF OMITTED] T0084.320

[GRAPHIC] [TIFF OMITTED] T0084.321

[GRAPHIC] [TIFF OMITTED] T0084.322

[GRAPHIC] [TIFF OMITTED] T0084.323

[GRAPHIC] [TIFF OMITTED] T0084.324

[GRAPHIC] [TIFF OMITTED] T0084.325

[GRAPHIC] [TIFF OMITTED] T0084.326

[GRAPHIC] [TIFF OMITTED] T0084.327

[GRAPHIC] [TIFF OMITTED] T0084.328

[GRAPHIC] [TIFF OMITTED] T0084.329

[GRAPHIC] [TIFF OMITTED] T0084.330

[GRAPHIC] [TIFF OMITTED] T0084.331

[GRAPHIC] [TIFF OMITTED] T0084.332

[GRAPHIC] [TIFF OMITTED] T0084.333

[GRAPHIC] [TIFF OMITTED] T0084.334

[GRAPHIC] [TIFF OMITTED] T0084.335

[GRAPHIC] [TIFF OMITTED] T0084.336

[GRAPHIC] [TIFF OMITTED] T0084.337

[GRAPHIC] [TIFF OMITTED] T0084.338

[GRAPHIC] [TIFF OMITTED] T0084.339

[GRAPHIC] [TIFF OMITTED] T0084.340

[GRAPHIC] [TIFF OMITTED] T0084.341

[GRAPHIC] [TIFF OMITTED] T0084.342

[GRAPHIC] [TIFF OMITTED] T0084.343

[GRAPHIC] [TIFF OMITTED] T0084.344

[GRAPHIC] [TIFF OMITTED] T0084.345

[GRAPHIC] [TIFF OMITTED] T0084.346

[GRAPHIC] [TIFF OMITTED] T0084.347

[GRAPHIC] [TIFF OMITTED] T0084.348

[GRAPHIC] [TIFF OMITTED] T0084.349

[GRAPHIC] [TIFF OMITTED] T0084.350

[GRAPHIC] [TIFF OMITTED] T0084.351

[GRAPHIC] [TIFF OMITTED] T0084.352

[GRAPHIC] [TIFF OMITTED] T0084.353

[GRAPHIC] [TIFF OMITTED] T0084.354

[GRAPHIC] [TIFF OMITTED] T0084.355

[GRAPHIC] [TIFF OMITTED] T0084.356

[GRAPHIC] [TIFF OMITTED] T0084.357

[GRAPHIC] [TIFF OMITTED] T0084.358

[GRAPHIC] [TIFF OMITTED] T0084.359

[GRAPHIC] [TIFF OMITTED] T0084.360

[GRAPHIC] [TIFF OMITTED] T0084.361

[GRAPHIC] [TIFF OMITTED] T0084.362

[GRAPHIC] [TIFF OMITTED] T0084.363

[GRAPHIC] [TIFF OMITTED] T0084.364

[GRAPHIC] [TIFF OMITTED] T0084.365

[GRAPHIC] [TIFF OMITTED] T0084.366

[GRAPHIC] [TIFF OMITTED] T0084.367

[GRAPHIC] [TIFF OMITTED] T0084.368

[GRAPHIC] [TIFF OMITTED] T0084.369

[GRAPHIC] [TIFF OMITTED] T0084.370

[GRAPHIC] [TIFF OMITTED] T0084.371

[GRAPHIC] [TIFF OMITTED] T0084.372

[GRAPHIC] [TIFF OMITTED] T0084.373

[GRAPHIC] [TIFF OMITTED] T0084.374

[GRAPHIC] [TIFF OMITTED] T0084.375

[GRAPHIC] [TIFF OMITTED] T0084.376

[GRAPHIC] [TIFF OMITTED] T0084.377

[GRAPHIC] [TIFF OMITTED] T0084.378

[GRAPHIC] [TIFF OMITTED] T0084.379

[GRAPHIC] [TIFF OMITTED] T0084.380

[GRAPHIC] [TIFF OMITTED] T0084.381

[GRAPHIC] [TIFF OMITTED] T0084.382

[GRAPHIC] [TIFF OMITTED] T0084.383

[GRAPHIC] [TIFF OMITTED] T0084.384

[GRAPHIC] [TIFF OMITTED] T0084.385

[GRAPHIC] [TIFF OMITTED] T0084.386

[GRAPHIC] [TIFF OMITTED] T0084.387

[GRAPHIC] [TIFF OMITTED] T0084.388

[GRAPHIC] [TIFF OMITTED] T0084.389

[GRAPHIC] [TIFF OMITTED] T0084.390

[GRAPHIC] [TIFF OMITTED] T0084.391

[GRAPHIC] [TIFF OMITTED] T0084.392

[GRAPHIC] [TIFF OMITTED] T0084.393

[GRAPHIC] [TIFF OMITTED] T0084.394

[GRAPHIC] [TIFF OMITTED] T0084.395

[GRAPHIC] [TIFF OMITTED] T0084.396

[GRAPHIC] [TIFF OMITTED] T0084.397

[GRAPHIC] [TIFF OMITTED] T0084.398

[GRAPHIC] [TIFF OMITTED] T0084.399

[GRAPHIC] [TIFF OMITTED] T0084.400

[GRAPHIC] [TIFF OMITTED] T0084.401

[GRAPHIC] [TIFF OMITTED] T0084.402

[GRAPHIC] [TIFF OMITTED] T0084.403

[GRAPHIC] [TIFF OMITTED] T0084.404

[GRAPHIC] [TIFF OMITTED] T0084.405

[GRAPHIC] [TIFF OMITTED] T0084.406

[GRAPHIC] [TIFF OMITTED] T0084.407

[GRAPHIC] [TIFF OMITTED] T0084.408

[GRAPHIC] [TIFF OMITTED] T0084.409

[GRAPHIC] [TIFF OMITTED] T0084.410

[GRAPHIC] [TIFF OMITTED] T0084.411

[GRAPHIC] [TIFF OMITTED] T0084.412

[GRAPHIC] [TIFF OMITTED] T0084.413

[GRAPHIC] [TIFF OMITTED] T0084.414

[GRAPHIC] [TIFF OMITTED] T0084.415

[GRAPHIC] [TIFF OMITTED] T0084.416

[GRAPHIC] [TIFF OMITTED] T0084.417

[GRAPHIC] [TIFF OMITTED] T0084.418

[GRAPHIC] [TIFF OMITTED] T0084.419

[GRAPHIC] [TIFF OMITTED] T0084.420

[GRAPHIC] [TIFF OMITTED] T0084.421

[GRAPHIC] [TIFF OMITTED] T0084.422

[GRAPHIC] [TIFF OMITTED] T0084.423

[GRAPHIC] [TIFF OMITTED] T0084.424

[GRAPHIC] [TIFF OMITTED] T0084.425

[GRAPHIC] [TIFF OMITTED] T0084.426

[GRAPHIC] [TIFF OMITTED] T0084.427

[GRAPHIC] [TIFF OMITTED] T0084.428

[GRAPHIC] [TIFF OMITTED] T0084.429

[GRAPHIC] [TIFF OMITTED] T0084.430

[GRAPHIC] [TIFF OMITTED] T0084.431

[GRAPHIC] [TIFF OMITTED] T0084.432

[GRAPHIC] [TIFF OMITTED] T0084.433

[GRAPHIC] [TIFF OMITTED] T0084.434

[GRAPHIC] [TIFF OMITTED] T0084.435

[GRAPHIC] [TIFF OMITTED] T0084.436

[GRAPHIC] [TIFF OMITTED] T0084.437

[GRAPHIC] [TIFF OMITTED] T0084.438

[GRAPHIC] [TIFF OMITTED] T0084.439

[GRAPHIC] [TIFF OMITTED] T0084.440

[GRAPHIC] [TIFF OMITTED] T0084.441

[GRAPHIC] [TIFF OMITTED] T0084.442

[GRAPHIC] [TIFF OMITTED] T0084.443

[GRAPHIC] [TIFF OMITTED] T0084.444

[GRAPHIC] [TIFF OMITTED] T0084.445

[GRAPHIC] [TIFF OMITTED] T0084.446

[GRAPHIC] [TIFF OMITTED] T0084.447

[GRAPHIC] [TIFF OMITTED] T0084.448

[GRAPHIC] [TIFF OMITTED] T0084.449

[GRAPHIC] [TIFF OMITTED] T0084.450

[GRAPHIC] [TIFF OMITTED] T0084.451

[GRAPHIC] [TIFF OMITTED] T0084.452

[GRAPHIC] [TIFF OMITTED] T0084.453

[GRAPHIC] [TIFF OMITTED] T0084.454

[GRAPHIC] [TIFF OMITTED] T0084.455

[GRAPHIC] [TIFF OMITTED] T0084.456

[GRAPHIC] [TIFF OMITTED] T0084.457

[GRAPHIC] [TIFF OMITTED] T0084.458

[GRAPHIC] [TIFF OMITTED] T0084.459

[GRAPHIC] [TIFF OMITTED] T0084.460

[GRAPHIC] [TIFF OMITTED] T0084.461

[GRAPHIC] [TIFF OMITTED] T0084.462

[GRAPHIC] [TIFF OMITTED] T0084.463

[GRAPHIC] [TIFF OMITTED] T0084.464

[GRAPHIC] [TIFF OMITTED] T0084.465

[GRAPHIC] [TIFF OMITTED] T0084.466

[GRAPHIC] [TIFF OMITTED] T0084.467

[GRAPHIC] [TIFF OMITTED] T0084.468

[GRAPHIC] [TIFF OMITTED] T0084.469

[GRAPHIC] [TIFF OMITTED] T0084.470

[GRAPHIC] [TIFF OMITTED] T0084.471

[GRAPHIC] [TIFF OMITTED] T0084.472

[GRAPHIC] [TIFF OMITTED] T0084.473

[GRAPHIC] [TIFF OMITTED] T0084.474

[GRAPHIC] [TIFF OMITTED] T0084.475

[GRAPHIC] [TIFF OMITTED] T0084.476

[GRAPHIC] [TIFF OMITTED] T0084.477

[GRAPHIC] [TIFF OMITTED] T0084.478

[GRAPHIC] [TIFF OMITTED] T0084.479

[GRAPHIC] [TIFF OMITTED] T0084.480

[GRAPHIC] [TIFF OMITTED] T0084.481

[GRAPHIC] [TIFF OMITTED] T0084.482

[GRAPHIC] [TIFF OMITTED] T0084.483

[GRAPHIC] [TIFF OMITTED] T0084.484

[GRAPHIC] [TIFF OMITTED] T0084.485

[GRAPHIC] [TIFF OMITTED] T0084.486

[GRAPHIC] [TIFF OMITTED] T0084.487

[GRAPHIC] [TIFF OMITTED] T0084.488

[GRAPHIC] [TIFF OMITTED] T0084.489

[GRAPHIC] [TIFF OMITTED] T0084.490

[GRAPHIC] [TIFF OMITTED] T0084.491

[GRAPHIC] [TIFF OMITTED] T0084.492

[GRAPHIC] [TIFF OMITTED] T0084.493

[GRAPHIC] [TIFF OMITTED] T0084.494

[GRAPHIC] [TIFF OMITTED] T0084.495

[GRAPHIC] [TIFF OMITTED] T0084.496

[GRAPHIC] [TIFF OMITTED] T0084.497

[GRAPHIC] [TIFF OMITTED] T0084.498

[GRAPHIC] [TIFF OMITTED] T0084.499

[GRAPHIC] [TIFF OMITTED] T0084.500

[GRAPHIC] [TIFF OMITTED] T0084.501

[GRAPHIC] [TIFF OMITTED] T0084.502

[GRAPHIC] [TIFF OMITTED] T0084.503

[GRAPHIC] [TIFF OMITTED] T0084.504

[GRAPHIC] [TIFF OMITTED] T0084.505

[GRAPHIC] [TIFF OMITTED] T0084.506

[GRAPHIC] [TIFF OMITTED] T0084.507

[GRAPHIC] [TIFF OMITTED] T0084.508

[GRAPHIC] [TIFF OMITTED] T0084.509

[GRAPHIC] [TIFF OMITTED] T0084.510

[GRAPHIC] [TIFF OMITTED] T0084.511

                                 <all>

</pre></body></html>
